<html>
<title> - PROJECT 28, THE FUTURE OF SBINET</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                    PROJECT 28, THE FUTURE OF SBINET

=======================================================================

                                HEARING

                               before the

     SUBCOMMITTEE ON BORDER, MARITIME, AND GLOBAL COUNTERTERRORISM

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 7, 2007

                               __________

                           Serial No. 110-45

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________


                   U.S. GOVERNMENT PRINTING OFFICE
48-920 PDF                  WASHINGTON : 2009
----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�0900012009


                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON-LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina         MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado
VACANCY

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

     SUBCOMMITTEE ON BORDER, MARITIME, AND GLOBAL COUNTERTERRORISM

                LORETTA SANCHEZ, California, Chairwoman

JANE HARMAN, California              MARK E. SOUDER, Indiana
ZOE LOFGREN, California              BOBBY JINDAL, Louisiana
SHEILA JACKSON-LEE, Texas            DAVID G. REICHERT, Washington
JAMES R. LANGEVIN, Rhode Island      MICHAEL T. McCAUL, Texas
HENRY CUELLAR, Texas                 GUS M. BILIRAKIS, Florida
AL GREEN, Texas                      PETER T. KING, New York (Ex 
BENNIE G. THOMPSON, Mississippi (Ex  Officio)
Officio)

                         Alison Rosso, Director

                         Denise Krepp, Counsel

                       Carla Zamudio-Dolan, Clerk

        Mandy Bowers, Minority Senior Professional Staff Member

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Loretta Sanchez, a Representative in Congress From 
  the State of California, and Chairwoman, Subcommittee on 
  Border, Maritime, and Global Counterterrorism..................     1
The Honorable Mark E. Souder, a Representative in Congress From 
  the State of Indiana, and Ranking Member, Subcommittee on 
  Border, Maritme, and Global Counterterrorism...................     2
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     4
The Honorable Henry Cuellar, a Representative in Congress From 
  the State of Texas.............................................    22
The Honorable Al Green, a Representative in Congress From the 
  State of Texas.................................................    19
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas........................................    20

                               WITNESSES

Chief David V. Aguilar, Border Patrol, U.S. Customs and Border 
  Protection, U.S. Department of Homeland Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     7
Mr. Jerry W. McElwee, Vice President and Program Manager SBInet, 
  Boeing Advanced Systems:
  Oral Statement.................................................    12
  Prepared Statement.............................................    14
Mr. Gregory Giddens, Executive Director, Secure Border 
  Initiative, U.S. Department of Homeland Security:
  Oral Statement.................................................    10
  Prepared Statement.............................................     7

                        Questions and Responses:

  Responses from Mr. Greg Giddens................................    23
  Responses from Mr Jerry w. McElwee.............................    30


                    PROJECT 28, THE FUTURE OF SBINET

                              ----------                              


                         Thursday, June 7, 2007

             U.S. House of Representatives,
                    Committee on Homeland Security,
                          Subcommittee on Border, Maritime,
                               and Global Counterterrorism,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:17 p.m., in 
Room 311, Cannon House Office Building, Hon. Loretta Sanchez 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Sanchez, Jackson Lee, Langevin, 
Cuellar, Green, Thompson (ex officio) and Souder.
    Ms. Sanchez. The subcommittee will come to order. And the 
subcommittee today is meeting to receive testimony on Project 
28, the future of SBInet. Good afternoon. Thank you gentlemen 
for being before us today on this hearing, Project 28, the 
future of the Security Border Initiative Net or SBInet. As we 
all know, securing our nation's borders is an urgent issue that 
has been long overlooked. This subcommittee has been concerned 
about the state of American security and American border 
security and what needs to be done to improve it. In fact, this 
hearing is our sixth subcommittee hearing that has specifically 
focused on border security issues, and I am sure that we will 
continue to examine these issues closely, especially in the 
coming months as we see what is happening over on the other 
side at the Senate. Today's hearing is meant to be an update on 
the status of SBInet and on the plans of the next phases of 
implementation.
    The SBInet portion of the Secure Border Initiative is 
tasked with establishing a system of systems that utilizes 
surveillance detection, command and control intelligence, 
tactical infrastructure, communications and information 
technology. There is no doubt that SBInet is a challenging 
initiative. And for that reason, we will be watching it closely 
to ensure that it improves our Nation's border security and 
that it is a sound investment of our tax dollars.
    I am looking forward to hearing about the progress on 
construction of Project 28, the first infrastructure phase of 
SBInet which I believe will be completed in the coming weeks. 
In addition, I would like to know the plans and the timeline 
from the Border Patrol staff on Project 28, ensuring that 
Project 28 is fully integrated into the other systems and 
technologies that we have working for us on the border. It 
would be also useful to have a timeline and procedures by the 
Border Patrol and Customs border protection and Boeing to 
compile lessons learned on Project 28 and integrate any of 
those into the next phases of SBInet.
    I am looking forward to the dialogue today. And I look 
forward to your testimony.
    And I would like to thank our ranking member for continuing 
to be interested in this subject. And I look forward to 
continuing to work with you, and I will now yield for your 
opening statement.
    Mr. Souder. I thank you, Madam Chairwoman of our 
subcommittee, for your continuing oversight of this important 
issue, and I appreciate working together. It has been 
enjoyable, and hopefully we will continue to do so.
    Controlling our country's borders is an issue of 
sovereignty, and it is critical to our national security. In 
the United States, we have 2,000 miles of land border and 
thousands of miles along our coast, where illegal aliens, 
criminal organizations and others with illicit purposes seek to 
exploit the borders through illegally crossing or by coming 
through our ports of entry using fraudulent documents. There is 
no argument that hardening our borders is essential and 
achievable.
    While we do have disagreements within Congress on the best 
way to go about doing that, including how to implement the 
appropriate mix of physical infrastructure, technology and 
people. I think we can all agree that security must move 
forward. A promise was made to the American people in 1986 with 
the passage of the last amnesty bill that our borders would be 
secured. The glaring failure to fulfill that promise leaves the 
Nation with a much larger problem today at a time when we are 
also fighting a war against terrorist extremists. Even those of 
us who are favorable to resolving the status of those who 
currently are within the United States and increasing legal 
migration think that there is a growing number in Congress who 
agree that moving forward with a mass amnesty bill would divert 
resources away from securing the border, just as it did in 
1986, and could actually put the Nation at greater risk with 
unreliable background checks and rampant use of fraudulent 
documents. The media markets of foreign countries, especially 
those in Mexico and Latin and South America, are advertising 
that Congress is working at another amnesty. And I predict that 
we will see an increase of illegal entry for those trying to 
get into the U.S. before action is taken and the borders are 
hardened.
    I raise this issue to express my concern that the SBInet 
runs a risk of becoming a program that starts full of promise 
but fizzles out because the political winds change and 
resources are diverted. I am afraid that this is what is 
happening with the US-VISIT program, another critical border 
security initiative that still doesn't have an exit in place.
    Madam Chair, I hope that the subcommittee will hold a 
hearing in the future on this program as well. Specifically 
regarding SBInet and Project 28, I understand from previous DHS 
testimony that the schedule for completing SBInet in gaining 
operational control over the borders is 2013, almost 6 years 
from now, for a price tag of about $8 billion. I hope to get 
additional insight today of this timeline, the milestones, what 
physical roll infrastructure and fencing will play in how all 
of the systems will work together. I am concerned about the 
lifecycle cost for SBInet and how technology will hold up to 
the elements and operational requirements in future years. 
According to DHS budget information, the $8 billion planned 
expenditure covers the program through 2011 but not through 
2013 when the program is to be completed. I also want to know 
if models and testing have been done to estimate how the 
equipment will work 10 to 20 years from now. We cannot have 
another acquisition program that delivers unreliable equipment 
and assets like we saw in the deep water 110-foot cutter 
conversion and the design flaws in the National Security Cutter 
that may limit the life span of the vessel. For the committee 
to conduct proper oversight over SBInet, we have to understand 
how DHS and Boeing intend to measure success for Project 28 and 
the larger SBInet program. Conventional wisdom in the past 
tends to presume that as security measures are added to the 28 
miles in Sasabe, Arizona, illegal traffic will move to other 
areas along the border. That being the case, it will be 
difficult to measure how successful the different aspects of 
Project 28 are in patrolling the border. It is unclear to me 
what other performance measures are in place to gage the costs 
and benefits of Project 28, and I hope the witnesses can 
provide greater clarity to the testimony. The stakes are high 
in the mission to secure our borders. This is not just an 
economic migrant issue. Communities across the United States 
are dealing with the ramifications of our porous borders, 
ranging from illegal drugs, growing violence and illegal gang 
activity. This doesn't include the danger that terrorists are 
continually seeking ways to enter the United States.
    While statistics provided by the Border Patrol show that, 
last year, apprehensions of illegal aliens were down, our 
communities are seeing an influx of drugs. The retail price of 
cocaine fell by 11 percent from 2005 to 2006 to about $135 a 
gram of pure cocaine according to U.S. drug czar John Walters. 
If the price of drugs is falling, it is generally because there 
is a surplus, and that means more coming across our borders. 
Our borders are in fact not secure.
    This subcommittee has also received testimony about growing 
violence in border communities and against border agents. 
Yesterday an article appeared in the Christian Science Monitor 
saying that, quote, attacks on agents since October rose 3 
percent over the same period a year earlier. But in the Yuma 
sector in western Arizona, a hotbed of smuggling activity, 
they've jumped 56 percent. This increase in violence is one 
piece of evidence that our security efforts are having an 
impact, and the response, smugglers and illegal crossers are 
becoming more brazen and desperate. In the accompanying 
testimony on the technical and physical security improvements 
under SBInet, I will also ask the witnesses to speak about what 
is being done to prepare border agents for the increasing 
violence.
    Thank you, Madam Chair, for holding this hearing and for 
letting me give a long opening statement. I would like to thank 
our witnesses for being here. Look forward to your testimony. I 
yield back.
    Ms. Sanchez. I thank my colleague from Indiana. And I think 
it is incredibly important what you were talking about with 
respect to the possible harm to our border agents and law 
enforcement personnel there. So good opening statement. I now 
recognize the Chairman of the full committee, the gentleman 
from Mississippi, Mr. Thompson, for an opening statement.
    Mr. Thompson. Thank you very much, Madam Chairman. And I 
might say, welcome, again to our witnesses. It looks like you 
were together just yesterday.
    Madam Chairman, June 13, 2007, marks an important date for 
the SBInet program and for the Department of Homeland Security 
as a whole. On that date, Project 28 is scheduled to be fully 
operational, and we will begin to learn whether this $20 
million initial investment is going to be a success. But more 
than that, we should start to better understand whether SBInet 
is a technology solution that will give us the results we have 
been looking and seeking all along, a more secure border.
    Unfortunately, SBInet is the third border technology 
program that the department has launched. We are told, however, 
that this time around the outcome will be very different, 
partially because the department has learned valuable lessons 
from previous mistakes. We hope that this is the case because 
American taxpayers have spent more than $650 million and have 
waited more than 10 years for a successful border security 
initiative technology program. If it is successful, Project 28 
will finally give our Border Patrol agents the realtime 
situational awareness they need to take control of this 28-mile 
stretch of Arizona border while also helping ensure the agents' 
safety. Like many of my colleagues, I will be closely 
monitoring the rollout of Project 28 in the coming days and 
weeks. I look forward to visiting the site in the near future. 
Of course Project 28 is only the beginning of the SBInet 
program, and much more work remains to replicate similar 
technology across our borders. Therefore, the committee will 
continue to conduct vigorous oversight over Project 28 and the 
SBInet program in the coming months and beyond. Project 28 may 
well be the future of America's border security. Hopefully we 
got it right this time. And I yield back.

   Prepared Statement of the Honorable Bennie G. Thompson, Chairman, 
                     Committee on Homeland Security

    <bullet> June 13, 2007, marks an important date for the SBInet 
program and for the Department of Homeland Security as a whole.
    <bullet> On that date, Project 28 is scheduled to be fully 
operational, and we will begin to learn whether this $20 million 
initial investment is going to be a success.
    <bullet> But more than that, we should start to better understand 
whether SBInet is the technology solution that will give us the result 
we have been seeking all along: a more secure border.
    <bullet> Unfortunately, SBInet is the third border technology 
program that the Department has launched.
    <bullet> We are told, however, that this time around the outcome 
will be very different, partly because the Department has learned 
valuable lessons from previous mistakes.
    <bullet> We hope that is the case because the American taxpayer has 
spent more than $650 million and has waited more than ten years for a 
successful border security technology program.
    <bullet> If it is successful, Project 28 will finally give our 
Border Patrol agents the real-time situational awareness they need to 
take control of this 28 mile stretch of Arizona border, while also 
helping ensure the agents' safety.
    <bullet> Like many of my colleagues, I will be closely monitoring 
the rollout of Project 28 in the coming days and weeks, and look 
forward to visiting the site in the near future.
    <bullet> Of course, Project 28 is only the beginning of the SBInet 
program, and much work remains to replicate similar technology across 
our borders.
    <bullet> Therefore, the Committee will continue to conduct vigorous 
oversight over Project 28 and the SBInet program in the coming months 
and beyond.
    <bullet> Project 28 may well be the future of America's border 
security. . . hopefully we got it right this time.

    Ms. Sanchez. Thank you, Mr. Chairman. And I welcome our 
panel of witnesses. And I believe I am told that there may be 
votes being called up in another 15 or 20 minutes, so what I 
would like to try to do is get through our witnesses, each of 
you having 5 minutes to testify, and hopefully they are wrong 
on the votes, and we can get into asking some of the questions. 
And if not, we will break for those votes and then come back.
    Our first witness is Chief Aguilar of the U.S. Border 
Patrol. We know all about you. I will put it into the record, 
all your background and everything. Our second witness is Mr. 
Gregory Giddens, director of the Secure Border Initiative at 
the Department of Homeland Security. And our third and final 
witness, Mr. Jerry McElwee, is vice president and SBInet 
program manager for Boeing.
    Ms. Sanchez. So, welcome, gentlemen, and we will start with 
the chief for 5 minutes.

   STATEMENT OF DAVID V. AGUILAR, CHIEF, BORDER PATROL, U.S. 
  CUSTOMS AND BORDER PROTECTION, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Aguilar. Thank you. Good afternoon, Madam Chairwoman 
Sanchez, Ranking Member Souder and Chairman Thompson and other 
members of the committee that may walk in here in a little bit. 
It is a pleasure and opportunity to be here with you this 
afternoon to share information with you and testify on one of 
the most--what I believe to be one of the most impacting 
initiatives that this country has ever undertaken towards 
getting operational control of our borders. I would like to 
begin very quickly with talking to what I had talked about in 
the past, and that is a tremendous amount of forces that are 
impacting our borders, both north and south, and that equates 
to the following: 1.1 million illegal aliens last year; 1.3 
million pounds of narcotics that we apprehended last year. This 
is all Border Patrol specific. Approximately 108,000 OTMs; over 
80,000 criminal aliens, and very importantly, the criminal 
organizations that are exploiting our borders, both north and 
south, in order to make use of our communities into--and 
smuggling into the United States. In addition to that, of 
course, is something that we are all very interested in, is 
anybody having an affiliation or a nexus to a country that 
exports terrorism or directly affiliated with terrorism.
    Now, all of this is happening across our 6,000 miles of 
border. Vast rural, remote areas of operation where we have 
operated historically. Past efforts that the Border Patrol has 
instituted against this border have in the best way that I can 
capture it been in a fragmented manner, and by that, I mean the 
following: Not that it was bad, but it was just fragmented. Too 
often in the past, we looked, organizationally and I think as a 
government, at applying a magic bullet, one piece of equipment, 
one solution to take care of the problem of our border.
    The difference today that we are going to talk about is 
going to be an integrated system that brings several pieces of 
technology, rudimentary and 21st Century, something as simple 
as a fence that will integrate with the technology that the 
integrator and the SBInet will be bringing to the table that 
will give us very simply the following things in order to bring 
operational control to the border, and that is the ability to: 
detect an entry; deter an entry; classify and identify what 
that illegal incursion is, that is from all-threats 
perspective; respond to it; and then bring it to the 
appropriate resolution as it relates to law enforcement. Is it 
an arrest? Is it a prosecution? Is it a deportation, a removal? 
Anything of that nature, all of those will be combined in this 
integrated systems approach that we are taking under SBInet.
    Now, very importantly is the right mix of resources. I have 
been asked this question several times, is, under this SBInet 
program, the right mix of resources? We will start with the 
operators. We will basically identify what the requirements 
are, and between SBInet and the integrator, we will identify 
the solutions set to apply to that focused portion of the 
border that we are working on in order to get us the 
operational control capability that I spoke to just a second 
ago.
    Now, today, as we speak, I don't want to ignore what I 
think is very important. We have already received unprecedented 
levels of resources as we continue to grow. We are on track to 
recruit, train and hire a net 2,500 Border Patrol agents by the 
end of this fiscal year. Today we sit at about 13,600 agents 
that are onboard. Operation Jump Start, up to 6,000 National 
Guard personnel currently deployed. We have ended catch-and-
release, 70 miles of fence to be built this year, commitment to 
build 225 miles next year. Partnerships have been established. 
Operations, such as stone garden, the creation of the best 
teams in Phoenix and San Diego and Laredo. Operation 
streamline, that has been absolutely effective in the Del Rio 
sector. That has mitigated that flow down there to a level of 
about 68 percent less than what it was compared to last year. 
Oasis and border violence protocols with Mexico, now a good 
partner working with us in order to instill even more security 
along our country's borders.
    The results of that that I can give you are: Illegal alien 
apprehensions today are down by 25 percent for the time period 
compared to last year. Narcotics apprehensions are actually up 
by 32 percent. That inverse relationship is a good one. The 
less time that we speak on any one of those--that we spend on 
any one of those horses coming at us, the more we can dedicate 
to the additional threats, vulnerabilities to risks that are 
there. We have been able to dedicate more time to narcotics. 
Therefore, we have a 32 percent increase in the apprehensions. 
OTM apprehensions are down by 47 percent. Last year, we had 
108,000 OTMs. We are down by 47 percent this year.
    Probably the most important thing that I want to touch on 
right now is the following, and that is transformation. We 
started out as an organization in 1924 literally riding a 
horseback, bringing our own binoculars, our own saddle. That is 
what we were. Today, as we speak, we have been equipped. The 
future of Border Patrol is going to be SBInet. That integration 
system of systems that will give us the capabilities that are 
required to bring operational control to the border. It is 
integrated. It is a system that is going to be deployed 
incrementally by risk management as to where we need to be 
focussing on vulnerabilities, threats and risks.
    I think, between the three of us, we will be able to give 
you a very good picture of where we are going, and I thank the 
committee and look forward to any questions that you might have 
of us.
    [The statement of Mr. Aguilar and Mr. Gregory Giddens 
follows:]

        Prepared Statement of David Aguilar and Gregory Giddens

    CHAIRWOMAN SANCHEZ, RANKING MEMBER SOUDER, AND DISTINGUISHED 
SUBCOMMITTEE MEMBERS, it is our honor to have the opportunity to appear 
before you today to discuss the current environment of border security 
and how SBInet, a key component of the Department of Homeland 
Security's (DHS) Secure Border Initiative (SBI), will provide U.S. 
Customs and Border Protection (CBP) with the tools necessary to gain 
effective control of the borders. My name is David Aguilar, and I am 
the Chief of the U.S. Border Patrol, and with me is Greg Giddens, the 
Executive Director of SBI. I would like to begin by giving you a brief 
overview of our agency and mission.
    In November 2005, Secretary Chertoff created the Secure Border 
Initiative to galvanize DHS actions across agencies in support of the 
President's three core objectives for comprehensive border security and 
immigration reform:
        <bullet> Gain effective control of the borders,
        <bullet> Strengthen interior enforcement and compliance with 
        immigration and customs laws, and
        <bullet> Support passage of a temporary worker program.
    Within this comprehensive DHS effort, CBP is charged with executing 
the first pillar of SBI--achieving control at and between the Nation's 
ports of entry.
    CBP, as the guardian of the Nation's borders, safeguards the 
homeland--by protecting the American public against terrorists and the 
instruments of terror, while at the same time enforcing the laws of the 
United States and fostering the Nation's economic security through 
lawful travel and trade. In addition, the Border Patrol continues to 
perform its traditional and vitally important duties of detecting, 
apprehending, and deterring illegal aliens, smugglers, drugs, and other 
contraband between the ports of entry. This is done simultaneously and 
in conjunction with uniformed CBP officers, who carry out similar 
interdiction and deterrence missions at our Nation's ports of entry 
while facilitating legitimate trade and legal immigration.
    The priority and traditional missions of CBP are complementary in 
nature, and we are achieving good results on both fronts. As of May 29, 
2007, total overall apprehensions are down 25 percent from fiscal year 
2006, with total Other than Mexican (OTMs) apprehensions down 47 
percent. The decrease in apprehensions is partly attributable to 
efforts to end the practice of ``catch and release'' and aggressive 
enforcement programs, such as Operation Streamline, the Arizona Border 
Control Initiative, Expedited Removal, the Interior Repatriation 
Program, and Operation Jumpstart. At the same time, narcotics seizures 
have significantly increased. To date, the Border Patrol has seized 
over 1.3 million pounds of marijuana, an increase of 30 percent as 
compared to the same time period last year, and 10,730 pounds of 
cocaine, an increase of 85 percent as compared to the same time period 
last year. Our success is based on deploying the right mix of 
personnel, technology, and infrastructure. Thanks to the strong support 
of Congress, we now have more agents to patrol more areas of the 
border, continue to add fencing and infrastructure along our borders, 
have increased our enforcement capabilities through Operation Jump 
Start, while building up our own internal resources, and continue our 
work to implement the SBInet program. These resource and operational 
efforts are having the desired effect on the criminal organizations 
that have historically operated along our Nation's borders as we have 
engaged our partners at DEA, FBI, and ATF, as well as other DHS 
components such as Coast Guard, ICE, and TSA, significantly improving 
our information and intelligence sharing efforts with these and other 
state local, tribal and law enforcement partners.
    The Border Patrol carries out its mission along our Nation's 
borders by applying the ``right mix of resources'' in a layered 
enforcement mode. This mix of resources includes personnel, technology, 
and infrastructure, which are deployed and implemented in a manner that 
is tailored to maximize enforcement efforts in a targeted area of 
operation. Included in these enforcement efforts is a critically 
important second layer of defense that denies major routes of egress 
from the borders to smugglers intent on delivering people, drugs, and 
other contraband into the interior of the United States. This is done 
through the use of tactical and permanent checkpoints on highways 
leading away from the border, the checking of transportation hubs that 
may be used to smuggle people or contraband, working with law 
enforcement task forces, and partnering with other law enforcement 
agencies.
    The Border Patrol has a clear strategic goal: to establish and 
maintain effective control of the borders of the United States. 
Effective control is defined in the Border Patrol's strategy as the 
ability to:
        <bullet> Detect an illegal entry;
        <bullet> Identify and classify the entry and determine the 
        level of threat involved;
        <bullet> Respond to the entry; and
        <bullet> Bring the event to a satisfactory law enforcement 
        resolution.
    Critical to effectively accomplishing our mission is the ability to 
continually assess, develop, and deploy the appropriate mix of 
technology, personnel, and infrastructure in order to gain, maintain, 
and expand coverage of the border and use our resources in the most 
efficient fashion. SBInet is charged with designing, developing, and 
implementing a ``system of systems'' solution that incorporates 
surveillance and detection, command and control, intelligence, tactical 
infrastructure, communications and information technology. This 
integrated solution will support Border Patrol agents between the ports 
of entry and CBP officers at the ports of entry as a tool to gain 
effective control of our Nation's borders. SBInet will utilize the 
latest innovative technology--cameras, biometrics, sensors, air assets, 
improved communications systems--to provide the force multiplier that 
the CBP agents and officers need to execute the agency's mission in the 
safest and most effective manner.
    Securing our Nation's diverse border terrain is an important and 
complex task that cannot be resolved by a single solution, such as 
installing fence alone. To secure each unique mile of the border 
requires a balance of technology, infrastructure, and personnel that 
maximizes our Nation's return on investment and is tailored to each 
specific environment. Some of the components included by the Border 
Patrol and SBInet in evaluating tactical infrastructure needs are 
border access, border barriers (both vehicle and pedestrian), and the 
integration of existing and new technologies, such as cameras, sensors, 
and software. The proper mix of resources will vary with differing 
border environments and enforcement challenges. Generally, the Border 
Patrol operates in three basic geographical environments: urban, rural, 
and remote. Each element has its own unique challenges.
    In an urban environment, enforcement personnel have only minutes, 
or sometimes seconds, to identify an illegal entry and to bring the 
situation to a successful resolution. Urban environments have 
significant infrastructure that does not exist in rural or remote 
areas. Urban areas facilitate an illegal entrant's crossing of the 
border and assimilation into the population in such a way that the 
violator easily blends in with legitimate traffic in the community 
within moments. Typically, smugglers and potential illegal entrants 
prefer urban areas due to the available infrastructure.
    In urban areas, the deployment mix will lean heavily on SBInet-
provided tactical infrastructure, such as lights and fences, and 
technology supported by sufficient personnel to quickly respond to 
intrusions. The physical infrastructure serves as a tactical tool to 
impede, channel, slow down, and manage the entrant. The deployment 
tends to be of high visibility in that a potential intruder actually 
sees the barriers, lights, detection capability, and patrols occurring 
on or near the immediate border. The goal of deployment in an urban 
area is to deter or divert potential illegal traffic into areas where 
the routes of egress are not immediately accessible and enforcement 
personnel have a greater tactical advantage.
    In a rural environment, response time to an incursion can be 
greater, as the time from the point of entry to assimilation into the 
local infrastructure may be minutes or hours, exposing the violator for 
a longer period of time and allowing for a more calculated enforcement 
response. Deployment in a rural area will be more dependent upon an 
SBInet solution that involves detection technology, which can track the 
illegal entrant as he progresses into the country; provides rapid 
access to the border; and establishes barriers designed to limit the 
speed and carrying capability of violators.
    In remote areas, it may take a violator hours or even days to 
transit from the point of entry to a location where the entry may be 
considered successful. This allows for a significantly more deliberate 
response capability geared toward fully exploiting the terrain and 
environmental advantages. Deployments in remote areas will lean very 
heavily on detection technology and will include infrastructure geared 
toward gaining access to permit enforcement personnel to confront and 
resolve the event at a time and location that are most tactically and 
strategically advantageous. Other infrastructure and/or facilities that 
may be employed in a remote area include remote operating bases to 
provide for full enforcement coverage in locations that are difficult 
to access on a shift-to-shift basis.
    Over the years, the Border Patrol has used various forms of 
technology and infrastructure to help complete its mission. As 
technologies develop and operational needs change, the systems used 
have evolved. For example, the Border Patrol screens individuals 
against the combined ENFORCE, IDENT, and IAFIS database systems, which 
were integrated by US-VISIT. Additionally, Border Patrol installed 
high-tech infrared cameras and sensors, provided agents with computers 
and intelligence databases, built command centers, and tested radar 
technology, all in an effort to bring greater control to the U.S. 
borders. Through SBInet, and with help from DHS Science and Technology, 
CBP will leverage the most effective proven technology (radars, 
communication devices, cameras, sensors, and other equipment), 
infrastructure, staffing, and response platforms, as well as integrate 
existing resources, in a single comprehensive and integrated border 
security solution. SBInet will help enable the CBP Border Patrol agent, 
the CBP officer, and the Air and Marine interdiction agent to more 
efficiently deter, detect, and resolve illegal entries into the United 
States. DHS Science and Technology will help reduce SBInet's 
programmatic risk by providing cutting edge technologies that have been 
thoroughly researched, developed, tested and evaluated for the system 
of systems border solution. Though the technological enhancements are 
meant to improve and standardize our way of doing business, they will 
also be tailored to meet an individual sector's needs.
    Although specific packages will vary, the vision under SBInet is to 
move towards a system that makes use of mobile data and communications 
systems and Common Operating Picture (COP) technologies that provide 
real-time situational awareness. A COP allows agents, dispatchers, and 
supervisors to know what is happening throughout their work environment 
and gives them broad situational awareness of their areas of 
responsibility. For example, agents with a mobile data terminal (MDT) 
in their vehicle will be able to receive an alert when sensors are 
triggered. The device will then download a live picture of the area 
from a camera mounted on towers. This will improve upon current 
procedures under which a dispatcher must relay information to the field 
agent, increasing overall effectiveness and efficiency. Command and 
Control Centers will have a global view of the sector, and they will be 
able to zoom in on specific locations via cameras to inform agents of 
an illegal entry, the number of persons involved in the incursion, 
their location, and the number and locations of agents within the area 
that can respond. SBInet plans to install radar, unmanned aircraft 
systems, ground surveillance radar, sensors, and camera towers to track 
the movement of people, vehicles, or boats. This type of system 
decreases the need for physical barriers, although it will not 
eliminate the need for fences or barriers in all locations. This is 
ideal in many desert, remote, and marine environments, such as the 
Great Lakes. These interconnected systems will send real-time, tactical 
information to Command and Control Centers and to agents via portable 
communications devices. The COP technology will also enhance 
integration intelligence for interdiction operations with the Coast 
Guard in the Great Lakes region.
    The SBInet solution will first be fielded along a 28-mile stretch 
of border in Sasabe, Arizona, in an effort known as Project 28. Project 
28 is the first segment of the SBInet integrated system that will 
supply CBP agents and officers with the ability to detect illegal 
entries when they occur, effectively and efficiently respond to each 
entry, and bring the situation to the appropriate law enforcement 
resolution. Project 28 will provide Border Patrol agents with real-time 
information of both CBP assets and intruder locations. This is the 
basis for integrated communications among Border Patrol agents, Border 
Patrol stations, Border Patrol sectors, and other law enforcement 
personnel. The primary components of the Project 28 system are the 
mobile integrated sensor towers, the Project 28 COP, enhanced 
communications, upgraded patrol vehicles, and Rapid Response Transport 
vehicles.
    The nine re-deployable sensor towers include integrated cameras and 
sensors to improve detection, identification, and classification. The 
cameras provide long-range surveillance, while the radar locates moving 
targets and classifies them. Both the cameras and radar operate day and 
night. The 98-foot high towers elevate the surveillance technologies 
above uneven terrain and vegetation. The towers include broadband 
wireless transmission capability and can be operated remotely. Once 
initial operating capability has been achieved, each tower will operate 
independently, incorporating data to the COP.
    COP data will be transmitted via the towers to the Tucson 
Headquarters facility, a Forward Operating Base, modified Border Patrol 
vehicles, and three Rapid Response Transports, increasing situational 
awareness, mission efficiency, and agent safety. Project 28 will 
provide Command, Control and Communications capability for the COP at 
Border Patrol Tucson Sector Headquarters; a Forward Operating Base 
Command, Control and Communications Unit outfitted with a COP and 
communications equipment; 50 patrol vehicles that have been upgraded to 
provide rugged, secure, mounted laptop computers to enable displays of 
COP data; and three Rapid Response Transports. Project 28 will also 
provide 70 satellite phones to improve communications with the patrol 
vehicles.
    Project 28 includes three Rapid Response Transports to increase the 
speed of transporting illegal immigrants from the point of apprehension 
to processing and detention facilities. The Rapid Response Transport 
vehicles, which are outfitted with laptops for COP display and 
satellite communications equipment, can transport up to 12 people.
    CBP has made great strides toward securing America's borders while 
facilitating legitimate trade and travel and ensuring the vitality of 
our economy. We recognize the challenges that lie ahead. By utilizing 
the latest technology and infrastructure as part of a comprehensive 
solution that also includes additional well-trained personnel, and by 
maintaining a vigilant interior enforcement of our Nation's immigration 
laws, we will fulfill our mission of protecting our country and its 
citizens. I would like to thank Chairwoman Sanchez, and the members of 
the Subcommittee, for the opportunity to present this testimony today 
and for your continued support of DHS and CBP. We would be pleased to 
respond to any questions that you may have at this time.

    Ms. Sanchez. Thank you, chief, and we will listen to Mr. 
Giddens now for 5 minutes or less. Thank you.

STATEMENT OF GREGORY GIDDENS, EXECUTIVE DIRECTOR, SECURE BORDER 
        INITIATIVE, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Giddens. Yes, ma'am. I caught the 5 or less. Good 
afternoon, Madam Chairwoman Sanchez, Ranking Member Souder, 
Chairman Thompson.
    It is an honor to be here in front of you and an honor, 
frankly, to be at the table, flanked on my left and right by 
both the chief and Jerry. Given your familiarity with SBInet 
and Project 28, I will keep my remarks brief, but there are a 
couple of issues I would like to highlight. As you know, SBInet 
is intended to secure our physical borders by giving our agents 
and officers the tools, capabilities, capacities they need in 
order to detect illegal entries, be able to effectively and 
efficiently respond to those and bring them to a resolution. 
Now, while SBInet is an important part of that system, we 
recognize it is only one part in a comprehensive solution to 
solving border security, one that begins outside our borders 
and extends into the interior of the heartland. As outlined in 
the Department's border security strategy, it is really one 
piece of that integrated strategy; the first being gaining 
effective control of our border.
    SBInet is a long overdue tool. Certainly the opening 
remarks hit home to us, and we have to get this right. It has 
been a long time coming, and now's the time we need to deliver 
on border security. We believe SBInet will do that. It will 
make the agents and officers more effective and efficient. And 
it will also improve their safety and also it will be able to 
reduce deaths in the desert because of the situational 
awareness that we will be able to provide to the agents and 
officers in the field.
    Both their acquisition approach and the system we deliver 
does represent a departure from previous attempts. The chief 
mentioned that. This is not a standalone by different 
components. It is by a system that is integrated from the 
beginning. We are beginning with the end in mind and providing 
a system that will provide operational utility. It is not just 
buying cameras or buying radars. It is buying a system that 
will function for the user. The contract that Boeing has 
encountered would ensure that those components work together to 
provide just such a system that enables the Border Patrol 
agents and the CBP officers to do their job.
    Defending Project 28 is really our first deployment and our 
first step toward improved security on the Nation's borders 
through the SBInet technology solution. In the coming weeks, 
Madam Chairman, as you mentioned, SBInet, through Project 28, 
will become operational around the Sasabe port of entry, and it 
will serve as a model. We appreciate your comments on lessons 
learned, and we have a rigorous test program that Boeing is 
executing now. And when we go live operationally, we will have 
a test program that we will--that we will put the system 
through to ensure it meets the needs but also to ensure we 
recognize what improvements we need to make as we go forward 
past Project 28.
    The project will provide the Border Patrol agents realtime 
situational awareness of both their assets and also provide the 
basis for integrated communications among CBP agents and 
officers. The primary components are the mobile integrated 
sensor towers, the common operational picture, enhanced 
communications, upgraded patrol vehicles as well as the rapid 
response transport vehicles. Each 100 miles represents unique 
terrain and operational conditions. However, along the 6,000 
miles of the northern and southwest border, the same philosophy 
must be employed. We must look for that right balance, as the 
chief mentioned between, staffing, the personnel, the 
technology and the tactical infrastructure.
    Given these realities, Project 28 will provide us lessons 
learned, and we will apply those to the different terrain and 
operational realities that we face as we move out from Project 
28. And as mentioned, as with any new technology, we will find 
areas that we need to improve on from Project 28. Unique 
challenges, particularly on the northern border, in terms of 
foliage penetration and along the Great Lakes, will present 
unique challenges that we will not face on the southwest 
border, and we are already looking to the northern border to 
explore some technology solutions that will be appropriate for 
that environment.
    As we speak, CBP and Boeing officials are preparing for 
design work to really finish the design in the southwest and 
also on northern border locations. And we will have a detailed 
analysis of those geographic and operational environments so 
that we will get the solution right. Also, as we speak to 
Boeing and CBP agents and officers in the field doing final 
testing of the deployed nine towers as a part of Project 28, 
the equipment is deployed and we are in the last stages of 
integration testing at the field. And we would welcome a visit 
for you to be able to see firsthand the difference that that 
will make to agents and officers in the field. I look forward 
to your questions. I appreciate your leadership and your 
insight as we move forward. And I look forward to hosting you 
along with the chief and CBP to a visit down to Project 28. 
Thank you.
    Ms. Sanchez. Thank you.
    And now Mr. McElwee for 5 minutes or less.

   STATEMENT OF JERRY W. McELWEE, VICE PRESIDENT AND PROGRAM 
            MANAGER SBInet, BOEING ADVANCED SYSTEMS.

    Mr. McElwee. Thank you, Madam Chairwoman, Ranking Member 
Souder, Chairman Thompson, distinguished members of the 
subcommittee. I am Jerry McElwee, and I am the Boeing program 
manager for SBInet. With your permission, madam chair, I would 
like to submit my written comments for the record and go 
directly to charts. I have concluded that charts are in this 
distinguished group perhaps my best bet to catch up with all 
the good information that has been provided by the chief and by 
Greg.
    We have talked about Sasabe. This is a Google map taken 
from about 13 miles in the air of the terrain in and around 
Sasabe. We show the nine towers spread left to right just 
inside the border. The two on your left are on the Tohono 
Oodham Indian nation. The remaining seven are in the national 
forest or in the public territory, public lands. You will 
notice that they are not all directly on the border. Our 
objective is to make sure that we see everyone that crosses the 
border before they are able to reach a control point or that 
location where they can disappear into the infrastructure 
without likelihood of apprehension.
    This next chart shows you the specifics of the tower. There 
is a radar on the very top with a long-range camera just 
beneath that. The camera is effective both day and night. And 
then you see the compound in which that camera is located. 
Notice that the tower is on wheels, and is in fact relocatable. 
It is a few-hours job to take it down, pull up stakes, load it 
on trucks or the tank and the generator and the satellite 
antenna and redeploy it to another location. We chose this 
approach because we thought it was important that we have some 
flexibility as opposed to anchoring permanent towers in the 
terrain at this point. This next chart shows you the initial 
deployment of tower three. Tower three was in the middle of the 
chart--or the Google map of two charts earlier. It is a 
relatively straightforward process, and not a lot of training 
required but the men who do it, just experience in having done 
it a few times.
    We have had concerns, questions about what is the volume of 
noise associated with the generator, and it is actually much 
less than a lawnmower that you might hear on a Saturday 
morning. It is a propane generator as opposed to MOGAS or 
diesel, and as a consequence, it operates much more quietly 
than some of the others. You may notice there is a band around 
the base of the tower. That is to preclude people from climbing 
the tower. There is a ring around the tower above that brown 
band that is local security cameras, lighting for its infrared 
lighting as opposed to the bright lights of daytime, plus a 
loud hailer. So if someone approaches the camera or the tower, 
you can see them at some distance and warn them away or get 
their identification for subsequent apprehension so you will 
not be able to--
    This shows the control room at the Tucson station. It is a 
new facility that was there before we arrived, and we have 
moved the equipment for the SBInet control center there. And 
what you see here are people working and doing the installation 
process. But that is up, installed, operational now. And is, as 
Greg said, we are going through the test process to ensure that 
it all works as a system, the system is, as we said it would.
    This chart or photograph shows you what we have done to the 
vehicle modification so that operators--and I am sure, you 
know, the Border Patrol agents are typically one officer per 
vehicle, and so we have set it up so that the driver is able to 
be either mobile or at a halt--preferably, for safety reasons, 
at a halt--look at the situational awareness around him. From 
this laptop, when he is within line of sight of a tower, he can 
take control of the camera on the tower and scan left, right, 
zoom, pan, tilt, whatever direction he or she chooses to get 
personal assessment of the potential undocumented aliens that 
he or she may be apprehending. That is a significant reduction 
in risk, we think, for an agent to be able to see with his or 
her eyes what it is they are going to be encountering when they 
attempt to make an apprehension.
    The radio equipment that you see there was already 
installed. That is part of the original. The hand set, 
telephone light that you see to the right of the screen, is an 
iridium satellite phone that ensures that you have continuous 
communications wherever the agent happens to be. It was our 
experience in doing an examination of the southwest desert that 
there are many locations that the existing communications that 
the agent has do not work. Shortage of relays, shortage of--the 
distances are just so vast that it is difficult to cover all of 
that. The satellite phone will provide that backup capability.
    This next chart shows the build-up of communications that 
is central to the entire system. This shows the mobile towers 
linked by satellite back to the station. The next flip shows 
the operator tying into the towers for communications and 
relaying back to the station as well as the vehicles. The third 
flip shows the overlay of the iridium satellite system to 
ensure that they do in fact have continuous communications, and 
the final or the next to final shows the broadband control 
system between the vehicle and the tower when the agent wishes 
to take control of the tower to--or control of the camera on 
the tower to make sure that they are able to see what they are 
about to encounter.
    Final step of the unattended ground sensors that provide 
coverage for depressions or low points in the ground that you 
cannot get line of sight coverage.
    This last chart shows the analysis that we did. It is the 
same terrain, 28 miles there that we are covering. The circles 
that you see represent the coverage of the radar systems. The 
lines, wiggly lines going from south to north represent most 
likely trails that undocumented aliens would attempt to use to 
penetrate. Notice the ones on the right are very--if you will--
different directions, lots of changes in the route of march. 
That is because it is very difficult terrain. You will see the 
green is where we have--with just the towers, not using the 
unattended ground sensors--the green is where we have coverage 
and would detect someone moving through there at a very high 
probability.
    You will notice that, as you get towards the back in some 
case, you lose them. What we attempted to do in our initial 
deployment was provide coverage with both the radars and the 
cameras that would preclude anyone moving through that area 
without detection.
    Madam Chairwoman, that is my set of presentations.
    [The statement of Mr. McElwee follows:]

                 Prepared Statement of Jerry W. McElwee

    Good afternoon, Chairwoman Sanchez, Ranking Member Souder, and 
Members of the Subcommittee.
    My name is Jerry McElwee. I am the Boeing Program Manager for the 
SBInet Program. I am pleased to have the opportunity to talk about our 
progress on Project 28, the first comprehensive deployment task order 
of the SBInet Program.
    SBInet is a program of significant national interest, with a 
challenge to deliver a system to the Department of Homeland Security 
that will:
        <bullet> Support the U.S. Customs and Border Protection (CBP) 
        in detecting, apprehending, and processing people who cross our 
        borders illegally,
        <bullet> Facilitate legitimate cross-border travel and 
        commerce, and most importantly,
        <bullet> Provide the taxpayers with the best-value solution 
        over the life of the program.
    We have an excellent team that proposed a comprehensive, open 
system solution utilizing proven technology and a systems architecture 
that will allow for continuous improvement as new technology comes on 
the market throughout the deployment. It is based on the systems 
engineering and design approach that Boeing has developed over time and 
used successfully on many other large, complex projects. An aspect of 
this approach is to continuously look for ``lessons learned,'' to 
incorporate into our process.
    We will deploy equipment on the border by drawing from a common set 
of proven technology which we call our ``tool box,'' but each sector 
solution will be uniquely designed for the needs of that sector.
    Boeing is very mindful that everything we do is under the direction 
and guidance of the CBP SBInet Program Management Office--and we have 
established a very good working partnership with them. Under our 
contract, Boeing cannot undertake any work that is not authorized by 
CBP through a task order issued under the SBI ID/IQ contract. Each task 
order is a FAR-compliant contract which means it has firm requirements 
and metrics to measure contractor performance. Project 28 is the first 
task order for deployment of our system.

PROJECT 28 SPECIFICS
    Project 28 is a Firm Fixed Price task order for the deployment of 
equipment across twenty eight miles of the Arizona Border covering the 
area on either side of the Sasabe, Arizona Port of Entry (POE). We 
chose this area because it is a high-traffic area and will provide a 
rigorous test of the system we proposed and are now building.
    We have deployed nine towers, each with radar, day/night (EO/IR) 
cameras and other sensors. Each tower is also equipped with data 
processing and communications equipment to effectively distribute 
information to the Control Centers, Mobile Units, Agent Vehicles and 
other law enforcement personnel. This information is processed into a 
Common Operating Picture (COP) which provides Border Patrol Agents with 
an accurate depiction and location of intruders as well as CBP assets. 
This capability dramatically improves the situational awareness of 
agents in the field, the command centers and sector headquarters.
    The first tower was deployed in April and testing began at that 
time. Today, all nine towers have been deployed and we began system 
level testing earlier this week to ensure that, upon completion, these 
towers and associated equipment will work as a system, providing a 
highly reliable, available, maintainable, and cost effective solution 
to strengthen the management, control and security of the border.
    I have some photos of the equipment and charts explaining the 
deployment which are attached.

THE WAY FORWARD
    CBP has given us authority to start planning for several other task 
orders and that work is underway. To support this effort which will run 
for the rest of this fiscal year and FY 2008, we have conducted a 
comprehensive re-competition of the technology and equipment we will 
need for these task orders, i.e. the first refreshment of the ``tool 
box.'' We conducted an Industry Day on May 3 which was attended by 
almost 900 individuals representing over 400 companies. Approximately 
three weeks later, we released 55 Requests for Proposal (RFPs) and are 
in the process of receiving and evaluating the resulting submissions. 
The winning companies will form the supplier base that will provide the 
technology and equipment for the next year or two.
    Project 28 gives us a demonstration of our approach and a test bed 
for incorporating improvements. The expanded team refreshes out 
technology, ensures low prices, and gives us the capacity to execute on 
the much larger task orders that lie ahead.
    In summary, we think we have made a good start on this program. We 
are on track to meet the milestones in the P-28 Demonstration Task 
Order, and we have initiated the planning, systems engineering, 
analysis, and team expansion necessary to meet the challenges ahead.

    Ms. Sanchez. Could you put that last one up for me? Thank 
you. Now there will be time to ask some questions, and each of 
the members will have 5 minutes, and I will begin the 
questioning.
    So according to this, the pink along the border that is 
just outside of what looks like Project 28, it says undetected. 
Is that because it is very rough terrain, and we are sort of 
not--
    Mr. McElwee. Two reasons: It is outside of the coverage 
area, so if we were to cover that, we would move a tower 
further to the east. Second, it is rough terrain, and we would 
anticipate perhaps using unattended ground sensors. There are a 
large number of those deployed in the P28 already, and that 
will be tied into the tower to cover the gaps we have.
    Ms. Sanchez. So when you finish up Project 28 you will take 
the lessons learned from that and you are going to go--I am 
assuming along the border or in sections and try to apply the 
same--different mix but the same type of technology mix, if you 
will. So those pink lines might be sensors or something of the 
sort depending on what type of terrain it is.
    Mr. McElwee. I wanted to show this to highlight the 
analysis that we do of the terrain in which we are operating. 
The Border Patrol will assure you every mile of the border from 
every other mile. So we have to do the analysis to determine 
where the sensors go and how many layers we need for a 
particular piece of terrain.
    Ms. Sanchez. So you have sort of taken a look at it, you 
are putting it in the mix, you are going to finish up Project 
28. And then what type of training are the patrols who are 
going to be there going to have with respect to this? And have 
you started that training, or is it on-the-job training? You 
know, what is the program for that?
    Mr. McElwee. Yes. We started this morning. It is classroom 
training followed with training on the equipment and then 
continued training on the job. The agents in the vehicles, I 
think the requirements going--we think it will take about 4 
hours of training to familiarize them with that. We incorporate 
our agents in the test plan that is underway now. The agents in 
the control center will require--we believe--a couple of days 
of training, and that will also continue with OJT afterwards.
    Ms. Sanchez. So once you finish the training and you think 
you have got the spots right, when would you say this would 
really be up and going, operationally 100 percent, we are going 
to be looking after the bad guys?
    Mr. McElwee. Two phases, we are going to declare initial 
operational capability IOC when we have completed all the 
testing and satisfied ourselves that we have collected all of 
the faults or bugs that we find.
    Ms. Sanchez. And when do you think about approximately what 
date that might be?
    Mr. McElwee. We are targeting the end of next week.
    Ms. Sanchez. Okay. And the second phase?
    Mr. McElwee. That is followed after IOC. That is turned 
over then to the Border Patrol. They operate the equipment. And 
approximately a month later, there will be another test done by 
an independent agency, communications and electronics command 
out of Fort Monmouth. They will come in and conduct another 
extended test with just the agents and the equipment to ensure 
that they are performing as expected.
    Ms. Sanchez. Thank you.
    Mr. Souder for 5 minutes.
    Mr. Souder. I thank you. I am going to actually--sometimes 
we say we are going to send questions and we don't get answers 
necessarily. I want to read into the record a couple of the 
questions I would like back, and we can either do them--I would 
like them in the formal hearing record, but maybe if I could 
have some follow up. A couple of them relate to more the 
narcotics, but that is directly related to the border question. 
The tar system, are you still considering in SBInet using the 
five balloons? And do you have a recommendation of whether to 
use the other nine balloons? Because this isn't just land. What 
happens is these little things pop over the top. That system 
sometimes works; sometimes doesn't. We all know that, but it is 
a layered border. And how are we handling the possible little 
air jumps that we have historically had?
    Secondly, and Mr. Aguilar, this would be more in your area. 
How do we explain that we are getting record seizures, and the 
price of cocaine in the country is dropping, and use in the 
emergency rooms aren't dropping? In other words, it is not 
clear demand has dropped. We are seizing more, and the price is 
low. This is a really interesting challenge. All this comes 
across the border. We are not growing cocaine. There may be in 
meth other questions; heroin, other questions. Madam Chairlady, 
I would like to suggest at some point we do a narcotics focus 
because whether it is ports, whether it is open areas, that 
clearly this is ours. It isn't just DHS direct. I mean, we have 
DEA there. We have NORTHCOM there. El Paso has seven different 
intelligence centers alone tracking things along the border. We 
have the southwest HIDA to see how they are interrelating 
because they are all going after people who are coming across. 
Those are a few of the questions. Now I want to make sure we 
get a couple of fundamental questions here.
    Do you still believe this is going to be completed around 
2013? And that it will cost $8 billion? Or are those cost 
estimates now rising, sliding?
    Mr. Giddens. Yes, sir. That is still the plan that we have 
laid out, is 2013 and a $8 billion price tag. We will look each 
year to update that based on what we find and any lessons 
learned. But that is still what our estimation is. I am still a 
little concerned. We have a plan for 2013, but certain 
appropriations will be a dry run on how fast that gets 
accomplished.
    Mr. Souder. Understood. That has been a problem in the 
past, you know, but when we are debating an immigration bill, 
supposedly it is even moving faster than that, and yet there is 
no plan how to actually execute 2013, no exit strategy for the 
borders that US-VISIT even have been asked to look at. And yet 
we are charging ahead with bills here, pretending like these 
things are funded. Like you say, any change in funding, as we 
have learned, or any change in modifications like we learned 
with the Capitol Visitor Center, every time we change the 
specks, every time we delay it a year or two, the costs go up. 
That is why, every time, I am going to ask you, is it still 
looking at 2013? Is it still looking at $8 billion?
    Next question, the 28 miles you are doing, and you are 
nearly activating that, that is what you are telling me. So 
when I was in Sasabe, since the time I was there, you put that 
much in?
    Mr. Giddens. Yes, sir.
    Mr. Souder. When is the next 28?
    Mr. Giddens. The next production deployment will be later 
this fall. We are doing a design activity for Tucson and Yuma 
sectors, and we split the design activity out so when we go to 
production contract, we already have hard firm contracts so we 
know what we are buying to minimize the risks on those 
production contracts. And we will have those awarded in the 
September-October time frame.
    Mr. Souder. Are you looking at, in effect, then, 56 miles a 
year on a regular basis?
    Mr. Giddens. No, sir. Our goal on the technology is to 
have--in fact, as you look, we have nine towers out now. We 
look to have 70 towers deployed and operational by the end of 
calendar year 2008.
    Mr. Souder. I want to ask a couple questions on 
measurement. When we are looking at the chart up there and when 
you look at the 28 miles, one of my constant questions has 
been, okay, if the Indianapolis Colts are having problems with 
people running left tackle, off tackle, and they take Dwight 
Feeney and seven other defensive people and say, we are going 
to block up that zone, probably the number of yards gained off 
tackle would be zero. But they will be running all over the 
field and passing all over the rest of the field. How do you 
plan to measure a successful program when just putting nine 
towers up means that we are--
    Mr. Giddens. Sir, you have asked a great question. And I 
hope I will give you a satisfactory answer. We do not believe 
that just by putting these nine towers up from these 28 miles 
that we can ignore the fact that somebody will say, hey, well, 
I will just go half a mile to the west or a half a mile to the 
east. That is why, when we are working with Boeing, we have 
very particular tests and requirements that they have to 
validate and verify to us. And then we join into a partnership 
with the Army where they are working for us as our independent 
test agent.
    Mr. Souder. Let me ask--and you can--anything you can write 
additional, we will go through and continue to talk. One of my 
questions here is that you are talking about whether the 
functional--and you know, you can run sample people through, 
which is very important functional aid. But one of the 
measures, how many things are actually getting through? In 
reality, not that much is likely to come through here. And one 
of our challenges, as opposed to a layered system, by 
concentrating your 28 miles, you look to 2013, we will be 
there. But between now and 2013, it is not that much we can 
adapt. In the model--and you don't have to answer this 
statement. I would also like to hear an answer to the question, 
are you modelling in success beyond just functional aid, the 
technology works, but in how the border's moving, do you put 
unemployment statistics in? Do you put how an immigration bill 
and people think they are going to get amnesty in, do you 
measure other variables? What is happening in Mexico, shifts 
inside their country? Because to know whether something's 
actually working beyond the technological side working, which 
would be nice to have the stuff work technologically, we have 
had that problem as well--
    Mr. Giddens. Yes, sir.
    Mr. Souder. I am not arguing it. I would like to know if 
that works. It is just, in a broader question, before we invest 
$8 billion, you know, are we having an impact and potential 
impact? I wanted to see not only for this one 28-mile stretch 
but how you are analyzing the border as a whole. Yield back.
    Ms. Sanchez. I recognize now the Chairman of the full 
Committee, Mr. Thompson.
    Mr. Thompson. Thank you very much, Madam Chairman, and I 
thank the witnesses for their testimony.
    Mr. Giddens, maybe you can provide this for the committee. 
As you know, all of this work requires a subcontracting plan. 
And if you would, would you get the subcontracting plan for 
Project 28 for us and see exactly how we came out? I am 
interested in small business participation and minority 
business participation on it.
    Mr. Giddens. Yes, sir.
    Mr. Thompson. The other thing I am interested in is, given 
the terrain differential, the climate differential, Mr. 
McElwee, can you tell me how you plan to make the adjustments 
in technology so that exactly what we need will be available to 
us as we go forward?
    Mr. McElwee. Yes, sir. We take something called the toolbox 
approach, and we have let a number of RFPs for the full range 
of cameras, radars, generators, towers, command and control 
systems, everything that we need to come up with a solution 
that will fit every segment of the border. That toolbox 
provides us low-price volume discounts, if you will, so that we 
can in fact be prepared to deploy a solution as rapidly as we 
complete the designs and receive the funding to proceed. The 
toolbox items have a range of requirements. Frankly, many of 
the cameras and the radars come out of the Department of 
Defense or the military community. And they meet cold weather, 
hot weather, wind, sand, all of the specifications that you 
would anticipate.
    Mr. Thompson. I appreciate that.
    Mr. Giddens, have we resolved the issue of whether or not 
we have the internal staffing capacity to manage a project this 
size? Are we still going to have to rely more on outside 
contractors to manage it?
    Mr. Giddens. Sir, we are still tracking on the plan that I 
had given to you last fall, and in fact, I think we are four 
ahead on the--four or six government FTEs ahead of what our 
plan was. So we are right--we believe--where we need to be at 
this point. We are still building to that end state of 270 and 
then looking in 2008 to create a better balance of having more 
government employees and support contractors.
    Mr. Thompson. But, at this point, this day, we still have 
more outside contractors providing oversight on this project 
than we have full-time government employees.
    Mr. Giddens. Sir, I would phrase that a little differently. 
None of our support contractors have an oversight role with any 
of the contractors. That oversight is a government 
responsibility. We do have at this time nine more support 
contractors than we do government employees working in the 
program office. But the oversight is a government function, and 
the support contractors are doing support work.
    Mr. Thompson. But do you understand what I mean?
    Mr. Giddens. Yes, sir.
    Mr. Thompson. At what point do you think we will have more 
government employees who do this full time in this capacity 
than we have contractors?
    Mr. Giddens. I think it would be the January 2008/February 
2008 time frame. Our 2008 budget has some FTE increases, and we 
will start the recruitment actions for those, and you gave us 
some good ideas last time that you allowed us to come by and 
chat with you on recruitment. We have been using opportunities. 
So we will start those recruitments and try to bring those 
folks as early as we can to 2008. That is when we will reach 
that tipping point of having more government employees, and it 
is an end state, sir, that we share.
    Mr. Thompson. Thank you. I yield back, Madam Chair.
    Ms. Sanchez. Thank you, Mr. Chair. And I now recognize Mr. 
Green from Texas for 5 minutes.
    Mr. Green. Thank you, Madam Chair, and I also thank the 
ranking member and, of course, the Chairman of the full 
Committee.
    Madam Chair, because I know that time is of the essence, I 
will move rather quickly. Let me start by asking about the 
Border Patrol agents themselves, the rank-and-file agents. Have 
they been consulted? My understanding is that there has been at 
least some consternation expressed by some agents with 
reference to some of the prior plans that had been developed? 
And who can answer quickly?
    Mr. Aguilar. I can tell you that, just last week, some of 
my representatives met with the president of the union to bring 
him up to speed on where we are, where we are going, how this 
is going to work, the integration and things of that nature. 
So, yes, we have been in contact with them and briefing them on 
it.
    Mr. Green. And equipment. We will probably not utilize all 
of the equipment that we have had for the previous projects as 
we move into Project 28. How much, if you know, underutilized 
equipment will we have?
    Mr. Giddens. Sir, our plan is to take those cameras that 
are out there operating today that will procure before SBInet 
and integrate those into the solution set, and then they become 
part of our responsibility as technology refreshed to replace 
that in the future.
    Mr. Green. So would your answer be that you will utilize 
100 percent of the equipment?
    Mr. Giddens. Yes, sir.
    Mr. Green. With reference to the system itself, once the 
system is 100 percent in place, how effective will it be? 
Because I understand that a system doesn't capture everything 
that you desire to have it do. But assuming that you get 100 
percent of your paradigm in place, how effective will that be 
in terms of being able to monitor and prevent crossings in that 
area that we are talking about? What is your prognostication.
    Mr. Giddens. 90 to 95 percent.
    Mr. Green. And finally, my understanding is that you will 
be bringing on a good number of agents. Just for that area, you 
will bring on some additional Border Patrol agents. Is this 
true?
    Mr. Aguilar. The mix of agents that will be placed for 
where SBInet goes will actually meet the requirements of that 
95 percent capability. Our goal is that, once it goes to 95 
percent capability, we will see a spike in arrests, and then if 
you will we will teach the criminal element they can no longer 
use that part of the border. So arrests should go down. We then 
adjust number of agents assigned to that and adjust to where 
they are going to be moving to.
    Mr. Green. Let me broaden my vision for the purposes of 
talking about agents coming onboard. You will be bringing on 
more agents at some point for the southern border?
    Mr. Aguilar. Oh, yes, sir. We are doing that now.
    Mr. Green. If you would, explain to me what process you are 
utilizing so as to have a cross-section of representation 
within the neophytes that you will have.
    Mr. Aguilar. Very good question. That is one of the things 
that we are looking at right now, the experience base that is 
out there and the experience base that needs to be teaching 
this transformation that we are going through. We are being 
very diligent in how we resource the sectors of work sectors of 
stations that are slated to receive the SBInet solution. On top 
of that, we are now hiring annuitants, retired Border Patrol 
agents that will bring in the high experience base that we are 
losing on a consistent basis. So those are the things that we 
are doing to ensure that there is a proper balance with the 
incoming--very accelerated new hires that we are getting.
    Mr. Green. Do you recruit at colleges and universities, 
chief?
    Mr. Aguilar. Yes, sir. Yes, very much so.
    Mr. Green. And how far inland do you come with your 
recruitment process? For example, do you come all the way to 
Houston, Texas, where we happen to have a university that I 
have a deep affinity and relationship with? Do you get that far 
into the--
    Mr. Aguilar. Yes, sir. We are throughout the United States. 
In fact, one of the most recent efforts we do is on NASCAR. We 
are basically running a car right next to the National Guard, 
to the Marines, to the Army, that type of recruitment also.
    Mr. Green. I would like you to give me statistical 
information on every university. How many recruits have you 
actually brought in from Prairie View? How many from Texas 
Southern?
    Mr. Aguilar. I don't have those numbers, but we can 
probably get them for you.
    Mr. Green. Would you kindly do this?
    Mr. Aguilar. Yes, sir.
    Mr. Green. Thank you very much.
    I yield back. Madam Chair, you have been generous with the 
time. Thank you.
    Ms. Sanchez. Five minutes to Ms. Jackson Lee from Texas.
    Ms. Jackson Lee. I think we have bells ringing. So let me 
thank all the witnesses and thank the Chairwoman and the 
ranking member and try to go directly to some of the questions 
that are impacting immigration reform that is being discussed 
and debated while we are here.
    Chief, one of the features in the bill is 18,000 Border 
Patrol agents. I think that is one of the numbers that I am 
seeing. But I really want to focus on your thoughts as to why 
it is difficult to recruit and retain Border Patrol agents and 
what improvements have been made in the professional 
development salary increase and promotion opportunities for 
Border Patrol agents?
    Mr. Aguilar. On the issue of recruitment and retaining, 
Congresswoman, the recruitment is a challenge. But we are on 
track this year for the 2,500 that we are--2,500 net that we 
are slated to hire this year. And for the 3,000 and the 500 to 
bring those up to that 18,000 number. We are on target to do 
that. And we feel confident we will be able to do that. It is a 
challenge but we are taking initiatives to meet those 
challenges.
    Ms. Jackson Lee. Can you just briefly--what is the 
challenge?
    Mr. Aguilar. The number. The numbers.
    Ms. Jackson Lee. That you need so many?
    Mr. Aguilar. Yes, ma'am.
    Ms. Jackson Lee. Not the attractiveness of the position?
    Mr. Aguilar. That is correct. In other words, getting them 
into the pipeline and recruiting them and then getting them 
through all the background checks and everything else that is 
required, the medicals and the physicals, before we even get 
them to the Border Patrol Academy. That is one of the 
challenges that we are facing. But we feel very confident that 
we are on track to meet those benchmarks that we have set for 
ourselves.
    Ms. Jackson Lee. Retention?
    Mr. Aguilar. We don't really have that much of a problem 
with retention. The attrition that is spoken of right now, 
there are three levels of attrition that I need to address. One 
is the attrition rate that happens from the date of hire to--or 
through the academy. And that is a high attrition rate, as it 
has always been.
    Ms. Jackson Lee. And if you can go quickly, I want to get a 
question--
    Mr. Aguilar. So there is that attrition rate, and then 
there is the attrition rate between the graduation of the 
academy and literally the 18th month of service, where people 
get onboard, they get on the ground and things of that nature. 
That right now is about 20 percent at each one of those. Once 
we get past the 18 months, the actual attrition rate for 
journeymen Border Patrol agents is only about 4 to 6 percent. 
That is a very good attrition rate.
    Ms. Jackson Lee. Are you happy with that professional 
development structure?
    Mr. Aguilar. Yes, and we are continuing to evolve it also.
    Ms. Jackson Lee. Thank you very much, chief. It is good to 
see you.
    Mr. Aguilar. Thank you.
    Ms. Jackson Lee. Mr.Giddens, Homeland Security has always 
been challenged over the years with this overweight of 
contracts. What are your benchmarks for moving away from the 
outside contracts? And out of this SBInet, are you seeing the 
lack of apprehensions because people are continuing to enter 
illegally, or because this program is working and it is 
deterring people from coming in?
    Mr. Giddens. Yes, ma'am. One of the benchmarks that we use 
for SBInet is to really look at, what are some of the core 
activities that we need to do within the government? For 
example, engineering. So we really need to establish a very 
robust technical engineering group to make sure that we have a 
cognizant technical authority working the programs. That is one 
of the first benchmarks I think that we really took a different 
approach on with SBInet to really go out and recruit government 
technical lead engineers and systems engineers. And in response 
to your question about apprehensions, we believe that is as a 
result of increased efficiency from the Border Patrol, 
Operation Jump Start, the ending of catch-and-release, so that 
OTMs are no longer just released into society, but they are 
actually returned to their home country. Because while we see 
apprehensions down, the other enforcement indicators--and the 
chief may want to chime in--the other enforcement indicators, 
such as counter narcotics and others, are on the increase. So 
we have increased enforcement activity.
    Ms. Jackson Lee. Do you see Project 28 going on and on and 
on and on? Or do you see that being incorporated into the 
services of the Department of Homeland Security?
    Mr. Giddens. I see it going on within CBP and becoming one 
of the lynch pins along with the staffing.
    Ms. Jackson Lee. And using an outside contractor or doing 
it inside?
    Mr. Giddens. I think using an outside contractor to perform 
some of the technical procurement, looking at the cameras, 
integrating that, is something that we would continue to do. 
But internally we want to have a robust engineering staff to 
make sure that we are technically competent customers at the 
table.
    Ms. Jackson Lee. I thank you.
    I yield back.
    Ms. Sanchez. Thank you to the gentlewoman from Texas.
    And now I will recognize another Texan, Mr. Cuellar. We are 
about 5 or 6 minutes away from the vote on the floor. So please 
ask your questions and what we will try to do is wrap it up at 
that point.
    Mr. Cuellar. Again, just for the sake of time, thank you 
for being here. Thank you, Madam Chair.
    I want to ask just three quick questions and a comparison 
between 1 mile of what I call SBI technology, 1 mile of fencing 
and then a comparison on cost, time and effectiveness. In other 
words, what is the cost of putting 1 mile of SBI technology and 
compare it to what is the cost of putting 1 mile of fencing? 
That is the first part of the question. Whoever wants to answer 
that.
    Mr. Giddens. Sir, our estimate for a mile of fence is 
approximately $3 million a mile, and for technology, it is, a 
million a mile is the round for that.
    Mr. Cuellar. Okay. What is a time to put up 1 mile of SBI 
technology compared time to put 1 mile of fencing?
    Mr. Giddens. It is less, sir. I don't have it with me, the 
particular answer.
    Mr. Cuellar. What is less?
    Mr. Giddens. The technology is less.
    Mr. Cuellar. A little bit more difficult is my last 
question. What is the effectiveness of having 1 mile of SBI 
technology compared to 1 mile of fencing? And I see your charts 
where you have that coverage before or after. Which would you 
say would be more effective? And I know there is a mixture of 
personnel, and I have heard that, but if you just made a quick 
comparison.
    Mr. Giddens. That is a tough comparison because they serve 
two different functions. The surveillance allows the Border 
Patrol agents and officers to know what is happening, to 
understand and have awareness of the situation, whereas the 
infrastructure is there to provide delay and not do a response 
mechanism.
    Mr. Aguilar. Congressman, I would put it this way, if we 
are talking about just solely a fence to the solution to the 
incursion problems versus a full solution to SBInet, I would 
prefer as an operator to have a full solution of SBInet applied 
to the border. I would prefer an SBInet solution of which fence 
is a piece of the SBI solution in some cases.
    Mr. Cuellar. Okay. Thank you.
    Madam Chairman, I know we have to go. Thank you gentlemen. 
Appreciate your work.
    Ms. Sanchez. Thank you to the gentleman from Texas. And 
gentlemen I am sure we could ask a lot more questions. I doubt 
I could keep my members from coming back at the next vote 
however. I am sure they have got other things to do this 
afternoon. Unfortunately, we ran into the vote. We did get a 
good amount of information from you. I am sure that the 
membership will want to submit some questions in writing. And I 
hope you will turn those around quickly, knowing in particular, 
as we discussed earlier in the week, that we have this 
immigration bill foremost in our thoughts, what we should do 
about the borders. So I thank the witnesses for their valuable 
testimony. The members of the subcommittee, if they have 
additional questions, will ask for them in writing. Hearing no 
further business, the subcommittee stands adjourned.
    [Whereupon, at 3:14 p.m., the subcommittee was adjourned.]

                        Questions and Responses

 Questions submitted by Hon. Mark E. Souder for Greg Giddens Responses

    Question 1: What is the projected timeline for implementation of 
SBInet and when should the American people expect to see results?
    Response: The goal of SBInet is gain effective control of the 
Southwest Border by 2013. SBInet is an integrated system of technology, 
expanded staff, and tactical infrastructure designed to achieve 
effective control of the border.
        Timeline
        As of September 1, 2007
        <bullet> CBP had deployed over 130 miles of primary fence, 
        approximately 112 miles of vehicle barriers, and hundreds of 
        miles of repaired or new patrol roads
        By the end of 2008:
        <bullet> CBP plans to have a total of 370 miles of primary 
        fence along the Southwest border, a total of 300 miles of 
        vehicle barriers, and a total of 105 communications, camera and 
        radar towers
        By 2013
        <bullet> CBP will have gained effective control of the border. 
        Effective control is defined by CBP as the ability to: (1) 
        detect illegal entries in the United States; (2) identify and 
        classify these entries to determine the level of threat 
        involved; (3) efficiently and effectively respond to these 
        entries; and, (4) bring each event to a satisfactory law 
        enforcement resolution. To have effective control, all four 
        elements must be present.

    Question 2.: It is likely that there will be a huge reduction in 
the amount of illegal traffic in the 28 miles of the initial pilot. How 
with DHS determine if this solution is successful?
    Response: Project 28 is the initial implementation of SBInet. The 
Project's goal is to achieve effective control of 28 miles of border in 
the Tucson Sector, where there is an area of high illegal entry. 
Project 28 includes 9 relocatable surveillance towers with sensors, one 
mobile Forward Operating Base (FOB), C3 capability at Tuscon HQ, 
upgrades to 50 agent vehicles, 70 satellite phones, 3 Rapid Response 
Transport Vehicles, 4 Unattended Ground Sensor Systems, and connecting 
satellite and wireless terrestrial communications.
    CBP has been collecting illegal entrant metrics based on the number 
of apprehensions in the Project 28 area of responsibility since last 
Fall. Operational metrics will be used as baseline data to compare the 
trend pattern before and after the deployment of Project 28, so as to 
demonstrate the effectiveness of the system. CBP has established a 
contract with the Communication and Electronic Research Development and 
Engineering Center (CERDEC) under the Army's Special Projects Office to 
provide independent, third party testing and evaluation for CBP on 
Project 28. The immediate impact of increased communications and 
coordination capability will enhance CBP's ability to secure the border 
with the current manpower.

    Question 3.: Illegal alien traffic is likely to move to the 
outlaying areas, ports of entry, and coastal areas. What is DHS doing 
to step up enforcement in these areas?
    Response: DHS anticipates an impact on operations at the ports of 
entry (POEs) as CBP gains greater control of segments of the border 
between the POEs. The impact on the POEs will be monitored and 
operations will be adjusted as appropriate to address any changes in 
alien traffic resulting from the deployment of the SBInet solution. CBP 
has established baseline measures for inadmissible alien and narcotics 
interceptions at the POEs to track these changes in alien traffic, and 
POE requirements are currently being collected and analyzed as part of 
the overall SBInet requirements collection process. Future deployment 
of technology and infrastructure at the POEs will support overall SBI 
efforts to gain effective control of the border by providing enhanced 
situational awareness and flexible response capabilities into POE 
operations.
    Currently DHS has a number of enforcement operations in place along 
the Southwest border. These include:
        <bullet> Operation Jump Start: United States National Guard 
        members deployed along the United States-Mexico border. 
        Deployment entails assistance in the enforcement of border 
        security and construction of a fence along the border. They 
        support the Border Patrol with administrative and civil 
        engineering projects. By taking over these areas for the Border 
        Patrol, they are freeing up sworn agents to field units.
        <bullet> Operation Streamline: A multi-agency initiative 
        targeted at aliens who enter illegally through high-traffic 
        areas within the Del Rio and Yuma Border Patrol Sectors. Those 
        illegal aliens who are not released due to humanitarian reasons 
        will face prosecution for illegal entry. The maximum penalty 
        for violation of this law is 180 days incarceration. While the 
        illegal alien is undergoing criminal proceedings, the 
        individual will also be processed for removal from the United 
        States.
    In addition, U.S. Customs and Border Protection (CBP) will be 
implementing the Western Hemisphere Travel Initiative (WHTI) at land 
and sea ports to strengthen border security and facilitate entry into 
the United States for U.S. citizens and legitimate international 
travelers at the POEs. Through the deployment of detection capabilities 
that will read technology embedded in the new travel documents required 
for travel under WHTI, CBP will be able to identify persons attempting 
to enter the country using fraudulent documents more efficiently. This 
detection capability will also allow CBP to compare all persons 
crossing the border against various terrorist and law enforcement 
databases. Through WHTI, CBP will enhance the ability to identify and 
detect illegal border activity. CBP has also increased training efforts 
for CBP personnel at the POEs regarding the detection of fraudulent 
documents.
    The Department also has assets that support maritime drug 
interdiction operations, including those in coastal waters. 
Specifically, CBP's Office of Air and Marine (A&M) has assets that 
support drug interdiction operations along the west coast. CBP's 
maritime assets include highly capable Midnight Express boats that are 
ideally configured for small boat drug interdiction. In addition, the 
Coast Guard operates a variety of small and large maritime assets that 
support maritime assets that support counterdrug efforts along the U.S. 
coastal areas.

    Question 4.: What is the sustainability of Project 28? What will 
this technology look like in 20 years? What is the projected lifecycle 
of the major components of Project 28, including the redeployable 
sensor towers?
    What are the expected maintenance costs of the redeployable sensor 
towers and the lifecycle requirements?
    Response: It is expected that the service life of sensors 
associated with Project 28 ranges from years, as is the case with all 
commercial off-the-shelf technology. As these assets approach the end 
of their service life, the SBInet program will insert a technology 
refresh program to replace obsolete technology with more up-to-date 
technology. The SBInet engineering and logistics support programs are 
postured to support this approach. SBInet technology will evolve as 
technology capabilities expand and become readily available.
    The estimated annual cost for the maintenance and support of 
Project 28 equipment is $5.7 million.

    Question 5.: Please describe the process that was used to test the 
long-term viability of the equipment being deployed to the southwest 
border under SBInet.
        a. Can it withstand the desert climate and other inclement 
        weather?
        b. Who will be responsible for the performance of each tower?
        c. Who will respond a sensor fails? How quickly will this 
        occur?
    Response: The SBInet specification contains requirements for this 
technology to endure both Southern border desert and Northern border 
environmental conditions. Both acceptance and operational test 
procedures will verify system performance under these conditions.
    The specification also contains the requirements for systems 
monitoring, which includes systems failures and performance 
degradation. Monitoring will be conducted remotely and displayed at the 
Tucson Sector Headquarters. Once a failure or system degradation 
occurs, maintenance personnel will be dispatched to restore the system 
on a priority basis depending on the classification of the failure 
(e.g., critical, non-critical). The response time by the maintenance 
personnel will also depend on the classification of system failure.

    Question 6.: What have the initial testing results of Project 28 
shown? What modifications will have to be made?
    Response: Boeing recently conducted a preliminary test readiness 
review of the Project 28 system. As an outcome, a list of items has 
been compiled which needs to be addressed prior to conducting a system 
acceptance test. These items include areas related to system 
integration and software complications. Boeing is currently working to 
address these issues.

    Question 7.: The DHS testimony states that the Science and 
Technology Directorate will help reduce SBInet's programmatic risk by 
providing cutting edge technologies. Will DHS Science and Technology 
coordinate directly with Boeing in its efforts? If not, who at the 
Department will be responsible for looking at the technology 
recommendations first and then refer them to Boeing?
    Response: No, the S&T Directorate will not coordinate directly with 
Boeing. Instead, the Directorate will work directly with the U.S. 
Customs and Border Protection (CBP) SBInet Program Office, which will 
review technology recommendations provided by the S&T Directorate and 
then refer them, as appropriate, to Boeing. The S&T Directorate's goal 
is to reduce SBInet programmatic risk by providing cutting-edge 
technologies that have been thoroughly researched, developed, tested, 
and evaluated for the system-of-systems border solution.

    Question 8.: How many agents are participating in Project 28? Is 
this an increase or a decrease from the normal agent allocation for 
this area?
    Response: There are approximately 750 Border Patrol Agents and CBP 
Officers assigned to the area Project 28 covers. Project 28 will not 
impact the number of CBP personnel assigned to this geographic 
location.

    Question 9.: How has the Department of Homeland Security used its 
waiver authority to expedite placement of infrastructure along the 
border? What steps has DHS taken to mitigate the potential negative 
impact of fencing on the environment and migrating animals?
    Response: The Secretary's has used his waiver authority twice to 
date--once, with respect to the San Diego Border Infrastructure System 
and secondly, with respect to construction within the Barry M. 
Goldwater Range. Each waiver was published in the Federal Register. CBP 
employs a number of best management practices to minimize potential 
environmental impacts, such as soil erosion control, solid and 
hazardous waste prevention, water resources, and biological resources, 
to include the protection of local wildlife. The goal of DHS is to make 
investments that effectively balance border security with the diverse 
needs of the community and environment in a selected area.

    Question 10.: The Department plans to build 7 miles of fencing in 
Sasabe by the end of 2007 but this does not appear to be part of 
Project 28 and it is not clear if there is overlap in the location of 
the two projects.
    How much fencing and vehicle barriers are included in Project 28? 
How much in all of SBInet? How did the Department determine what amount 
was appropriate?
    Response: DHS plans to build a total of 370 miles of primary fence 
along the Southwest border by the end of calendar year (CY) 2008, 
including a total of 145 miles of primary fence by the end of 2007. In 
addition, DHS will deploy at least 200 miles of vehicle barriers and 70 
communications, camera and radar towers by the end of CY 2008. As of 
June 2007, CBP has deployed over 130 miles of primary fence, over 112 
miles of vehicle barriers, new patrol roads and a variety of technology 
along the Southwest border.
    To determine the appropriate amount of fencing, SBI's methodology 
considered the cost and effectiveness of technology and tactical 
infrastructure. In regards to situational awareness, a comprehensive 
analysis is conducted that looks at all possible solutions and 
determines the best solutions to implement. There are currently plans 
for 7 miles of fence and 20 miles of vehicle barriers in Project 28.

    Question 11.: Statistics show, and you reinforce this in your 
testimony, that while illegal alien apprehensions are down this year, 
narcotics seizures are up. The street price of cocaine is falling, 
which means that there is more on the street. Briefings from JIATF 
South and the Coast Guard show that smugglers are moving drugs in small 
boats up the West Coast. Is SBInet planning to address this gap? What 
are the current capabilities?
    Response: The Department has assets that support maritime drug 
interdiction operations, including those in coastal waters. 
Specifically, CBP's Office of Air and Marine (A&M) has assets that 
support drug interdiction operations along the west coast. CBP's 
maritime assets include highly capable Midnight Express boats that are 
ideally configured for small boat drug interdiction. In addition, the 
Coast Guard operates a variety of small and large maritime assets that 
support maritime assets that support counterdrug efforts in US littoral 
waters. Besides CPB and Coast Guard maritime assets, CBP and the Coast 
Guard have air assets that support counterdrug operations, including 
those along the west coast. DHS air assets include a variety of fixed 
and rotary wing aircraft including highly capable P-3's that operate 
out of Corpus Christi, TX, and are ideally configured to address 
maritime smuggling.
    In addition to the assets mentioned above, the Department also 
supports Joint Interagency Task Force South maritime drug interdiction 
operations in the Eastern Pacific area. DHS drug intelligence, 
personnel and maritime and air platforms support interagency drug 
interdiction operations along the west coast of the United States. 
While not part of SBInet, these operations complement efforts to secure 
the entry of illegal drugs into the United States.

    Question 12.: What role does the Tethered Aerostat Radar System 
(TARS) place in securing the border and especially in the counter 
mission? Is SBInet considering these existing 5 balloons and do you 
have a recommendation on whether the 9 or so balloons that used to 
cover the transit zone but are now in cold storage should be restarted? 
Is there another capability that can take the place of TARs and provide 
this radar coverage along the border and coasts?
    Response: Yes, TARS is an effective method that contributes to 
border security efforts. The existing TARS capability provides the AMOC 
(Air and Marine Operations Center) the ability to detect aircraft, 
including small aircraft that enter the radar coverage area of the 
aerostats. The TARS array of aerostats provides a unique look-down 
detection capability for aircraft that would probably fly undetected by 
other radar systems due to ``terrain masking.'' The scope of SBInet is 
focused on land crossings. CBP continues to look for alternative ways 
to address the issue of low-flying aircraft.
    Question 1: What is the projected timeline for implementation of 
SBInet and when should the American people expect to see results?
    Response: The goal of SBInet is gain effective control of the 
Southwest Border by 2013. SBInet is an integrated system of technology, 
expanded staff, and tactical infrastructure designed to achieve 
effective control of the border.
        Timeline
        As of September 1, 2007
        <bullet> CBP had deployed over 130 miles of primary fence, 
        approximately 112 miles of vehicle barriers, and hundreds of 
        miles of repaired or new patrol roads
        By the end of 2008:
        <bullet> CBP plans to have a total of 370 miles of primary 
        fence along the Southwest border, a total of 300 miles of 
        vehicle barriers, and a total of 105 communications, camera and 
        radar towers
        By 2013
        <bullet> CBP will have gained effective control of the border. 
        Effective control is defined by CBP as the ability to: (1) 
        detect illegal entries in the United States; (2) identify and 
        classify these entries to determine the level of threat 
        involved; (3) efficiently and effectively respond to these 
        entries; and, (4) bring each event to a satisfactory law 
        enforcement resolution. To have effective control, all four 
        elements must be present.

    Question 2.: It is likely that there will be a huge reduction in 
the amount of illegal traffic in the 28 miles of the initial pilot. How 
with DHS determine if this solution is successful?
    Response: Project 28 is the initial implementation of SBInet. The 
Project's goal is to achieve effective control of 28 miles of border in 
the Tucson Sector, where there is an area of high illegal entry. 
Project 28 includes 9 relocatable surveillance towers with sensors, one 
mobile Forward Operating Base (FOB), C3 capability at Tuscon HQ, 
upgrades to 50 agent vehicles, 70 satellite phones, 3 Rapid Response 
Transport Vehicles, 4 Unattended Ground Sensor Systems, and connecting 
satellite and wireless terrestrial communications.
    CBP has been collecting illegal entrant metrics based on the number 
of apprehensions in the Project 28 area of responsibility since last 
Fall. Operational metrics will be used as baseline data to compare the 
trend pattern before and after the deployment of Project 28, so as to 
demonstrate the effectiveness of the system. CBP has established a 
contract with the Communication and Electronic Research Development and 
Engineering Center (CERDEC) under the Army's Special Projects Office to 
provide independent, third party testing and evaluation for CBP on 
Project 28. The immediate impact of increased communications and 
coordination capability will enhance CBP's ability to secure the border 
with the current manpower.

    Question 3.: Illegal alien traffic is likely to move to the 
outlaying areas, ports of entry, and coastal areas. What is DHS doing 
to step up enforcement in these areas?
    Response: DHS anticipates an impact on operations at the ports of 
entry (POEs) as CBP gains greater control of segments of the border 
between the POEs. The impact on the POEs will be monitored and 
operations will be adjusted as appropriate to address any changes in 
alien traffic resulting from the deployment of the SBInet solution. CBP 
has established baseline measures for inadmissible alien and narcotics 
interceptions at the POEs to track these changes in alien traffic, and 
POE requirements are currently being collected and analyzed as part of 
the overall SBInet requirements collection process. Future deployment 
of technology and infrastructure at the POEs will support overall SBI 
efforts to gain effective control of the border by providing enhanced 
situational awareness and flexible response capabilities into POE 
operations.
    Currently DHS has a number of enforcement operations in place along 
the Southwest border. These include:
        <bullet> Operation Jump Start: United States National Guard 
        members deployed along the United States-Mexico border. 
        Deployment entails assistance in the enforcement of border 
        security and construction of a fence along the border. They 
        support the Border Patrol with administrative and civil 
        engineering projects. By taking over these areas for the Border 
        Patrol, they are freeing up sworn agents to field units.
        <bullet> Operation Streamline: A multi-agency initiative 
        targeted at aliens who enter illegally through high-traffic 
        areas within the Del Rio and Yuma Border Patrol Sectors. Those 
        illegal aliens who are not released due to humanitarian reasons 
        will face prosecution for illegal entry. The maximum penalty 
        for violation of this law is 180 days incarceration. While the 
        illegal alien is undergoing criminal proceedings, the 
        individual will also be processed for removal from the United 
        States.
    In addition, U.S. Customs and Border Protection (CBP) will be 
implementing the Western Hemisphere Travel Initiative (WHTI) at land 
and sea ports to strengthen border security and facilitate entry into 
the United States for U.S. citizens and legitimate international 
travelers at the POEs. Through the deployment of detection capabilities 
that will read technology embedded in the new travel documents required 
for travel under WHTI, CBP will be able to identify persons attempting 
to enter the country using fraudulent documents more efficiently. This 
detection capability will also allow CBP to compare all persons 
crossing the border against various terrorist and law enforcement 
databases. Through WHTI, CBP will enhance the ability to identify and 
detect illegal border activity. CBP has also increased training efforts 
for CBP personnel at the POEs regarding the detection of fraudulent 
documents.
    The Department also has assets that support maritime drug 
interdiction operations, including those in coastal waters. 
Specifically, CBP's Office of Air and Marine (A&M) has assets that 
support drug interdiction operations along the west coast. CBP's 
maritime assets include highly capable Midnight Express boats that are 
ideally configured for small boat drug interdiction. In addition, the 
Coast Guard operates a variety of small and large maritime assets that 
support maritime assets that support counterdrug efforts along the U.S. 
coastal areas.

    Question 4.: What is the sustainability of Project 28? What will 
this technology look like in 20 years? What is the projected lifecycle 
of the major components of Project 28, including the redeployable 
sensor towers?
    What are the expected maintenance costs of the redeployable sensor 
towers and the lifecycle requirements?
    Response: It is expected that the service life of sensors 
associated with Project 28 ranges from years, as is the case with all 
commercial off-the-shelf technology. As these assets approach the end 
of their service life, the SBInet program will insert a technology 
refresh program to replace obsolete technology with more up-to-date 
technology. The SBInet engineering and logistics support programs are 
postured to support this approach. SBInet technology will evolve as 
technology capabilities expand and become readily available.
    The estimated annual cost for the maintenance and support of 
Project 28 equipment is $5.7 million.

    Question 5.: Please describe the process that was used to test the 
long-term viability of the equipment being deployed to the southwest 
border under SBInet.
        a. Can it withstand the desert climate and other inclement 
        weather?
        b. Who will be responsible for the performance of each tower?
        c. Who will respond a sensor fails? How quickly will this 
        occur?
    Response: The SBInet specification contains requirements for this 
technology to endure both Southern border desert and Northern border 
environmental conditions. Both acceptance and operational test 
procedures will verify system performance under these conditions.
    The specification also contains the requirements for systems 
monitoring, which includes systems failures and performance 
degradation. Monitoring will be conducted remotely and displayed at the 
Tucson Sector Headquarters. Once a failure or system degradation 
occurs, maintenance personnel will be dispatched to restore the system 
on a priority basis depending on the classification of the failure 
(e.g., critical, non-critical). The response time by the maintenance 
personnel will also depend on the classification of system failure.

    Question 6.: What have the initial testing results of Project 28 
shown? What modifications will have to be made?
    Response: Boeing recently conducted a preliminary test readiness 
review of the Project 28 system. As an outcome, a list of items has 
been compiled which needs to be addressed prior to conducting a system 
acceptance test. These items include areas related to system 
integration and software complications. Boeing is currently working to 
address these issues.

    Question 7.: The DHS testimony states that the Science and 
Technology Directorate will help reduce SBInet's programmatic risk by 
providing cutting edge technologies. Will DHS Science and Technology 
coordinate directly with Boeing in its efforts? If not, who at the 
Department will be responsible for looking at the technology 
recommendations first and then refer them to Boeing?
    Response: No, the S&T Directorate will not coordinate directly with 
Boeing. Instead, the Directorate will work directly with the U.S. 
Customs and Border Protection (CBP) SBInet Program Office, which will 
review technology recommendations provided by the S&T Directorate and 
then refer them, as appropriate, to Boeing. The S&T Directorate's goal 
is to reduce SBInet programmatic risk by providing cutting-edge 
technologies that have been thoroughly researched, developed, tested, 
and evaluated for the system-of-systems border solution.

    Question 8.: How many agents are participating in Project 28? Is 
this an increase or a decrease from the normal agent allocation for 
this area?
    Response: There are approximately 750 Border Patrol Agents and CBP 
Officers assigned to the area Project 28 covers. Project 28 will not 
impact the number of CBP personnel assigned to this geographic 
location.

    Question 9.: How has the Department of Homeland Security used its 
waiver authority to expedite placement of infrastructure along the 
border? What steps has DHS taken to mitigate the potential negative 
impact of fencing on the environment and migrating animals?
    Response: The Secretary's has used his waiver authority twice to 
date--once, with respect to the San Diego Border Infrastructure System 
and secondly, with respect to construction within the Barry M. 
Goldwater Range. Each waiver was published in the Federal Register. CBP 
employs a number of best management practices to minimize potential 
environmental impacts, such as soil erosion control, solid and 
hazardous waste prevention, water resources, and biological resources, 
to include the protection of local wildlife. The goal of DHS is to make 
investments that effectively balance border security with the diverse 
needs of the community and environment in a selected area.

    Question 10.: The Department plans to build 7 miles of fencing in 
Sasabe by the end of 2007 but this does not appear to be part of 
Project 28 and it is not clear if there is overlap in the location of 
the two projects.
    How much fencing and vehicle barriers are included in Project 28? 
How much in all of SBInet? How did the Department determine what amount 
was appropriate?
    Response: DHS plans to build a total of 370 miles of primary fence 
along the Southwest border by the end of calendar year (CY) 2008, 
including a total of 145 miles of primary fence by the end of 2007. In 
addition, DHS will deploy at least 200 miles of vehicle barriers and 70 
communications, camera and radar towers by the end of CY 2008. As of 
June 2007, CBP has deployed over 130 miles of primary fence, over 112 
miles of vehicle barriers, new patrol roads and a variety of technology 
along the Southwest border.
    To determine the appropriate amount of fencing, SBI's methodology 
considered the cost and effectiveness of technology and tactical 
infrastructure. In regards to situational awareness, a comprehensive 
analysis is conducted that looks at all possible solutions and 
determines the best solutions to implement. There are currently plans 
for 7 miles of fence and 20 miles of vehicle barriers in Project 28.

    Question 11.: Statistics show, and you reinforce this in your 
testimony, that while illegal alien apprehensions are down this year, 
narcotics seizures are up. The street price of cocaine is falling, 
which means that there is more on the street. Briefings from JIATF 
South and the Coast Guard show that smugglers are moving drugs in small 
boats up the West Coast. Is SBInet planning to address this gap? What 
are the current capabilities?
    Response: The Department has assets that support maritime drug 
interdiction operations, including those in coastal waters. 
Specifically, CBP's Office of Air and Marine (A&M) has assets that 
support drug interdiction operations along the west coast. CBP's 
maritime assets include highly capable Midnight Express boats that are 
ideally configured for small boat drug interdiction. In addition, the 
Coast Guard operates a variety of small and large maritime assets that 
support maritime assets that support counterdrug efforts in US littoral 
waters. Besides CPB and Coast Guard maritime assets, CBP and the Coast 
Guard have air assets that support counterdrug operations, including 
those along the west coast. DHS air assets include a variety of fixed 
and rotary wing aircraft including highly capable P-3's that operate 
out of Corpus Christi, TX, and are ideally configured to address 
maritime smuggling.
    In addition to the assets mentioned above, the Department also 
supports Joint Interagency Task Force South maritime drug interdiction 
operations in the Eastern Pacific area. DHS drug intelligence, 
personnel and maritime and air platforms support interagency drug 
interdiction operations along the west coast of the United States. 
While not part of SBInet, these operations complement efforts to secure 
the entry of illegal drugs into the United States.

    Question 12.: What role does the Tethered Aerostat Radar System 
(TARS) place in securing the border and especially in the counter 
mission? Is SBInet considering these existing 5 balloons and do you 
have a recommendation on whether the 9 or so balloons that used to 
cover the transit zone but are now in cold storage should be restarted? 
Is there another capability that can take the place of TARs and provide 
this radar coverage along the border and coasts?
    Response: Yes, TARS is an effective method that contributes to 
border security efforts. The existing TARS capability provides the AMOC 
(Air and Marine Operations Center) the ability to detect aircraft, 
including small aircraft that enter the radar coverage area of the 
aerostats. The TARS array of aerostats provides a unique look-down 
detection capability for aircraft that would probably fly undetected by 
other radar systems due to ``terrain masking.'' The scope of SBInet is 
focused on land crossings. CBP continues to look for alternative ways 
to address the issue of low-flying aircraft.

    Questions submitted by Hon. Mark E. Souder for Jerry W. McElwee 
                               Responses

    Question 1.: What is the projected timeline for implementation of 
SBInet?
    Response: Current DHS plans call for completion of the Southern 
Border by 2013.

    Question 2.: How will Boeing measure the success of SBInet?
    Response: Success will be indicated by (1) increased ability to 
detect illegal entries when they occur; (2) increased ability to 
identify what is detected by the sensors; (3) increased ability to 
classify the threat posed by the detected crossers; and (4) increased 
ability of the Border Patrol to apprehend and resolve illegal crossers 
identified by the system. Metrics will be kept on all the activities.

    Question 3.: What is the sustainability of Project 28? What will 
this technology look like in 20 years? What is the projected life cycle 
of the major components of Project 28, including the redeployable 
sensor towers?
    Response: P-28 is readily sustained. The SBInet team selected 
components for the redeployable towers that are among the most reliable 
and effective technology available. The propane-fueled electrical power 
source minimizes potential pollution issues and allows extended 
operation without frequent re-supply or services.
    Predicting the future of surveillance and command and control 
technology that is based primarily on the progression of computer 
processors is extremely difficult, even for the next five years. That 
said, Moore's Law for advances in computer processor performance 
predicts 10 to 12 new generations of computers within the next 20-year 
span. Each generation will significantly increase the ability to 
extract increasing amounts of information from traditional sensor 
systems. For example, cameras will collect more detailed information 
about the items or subjects upon which they focus. That data in turn 
can be compared and contrasted with increasingly greater amounts of 
data to first detect, then identify and classify those attempting to 
enter the country illegally. Additionally, small seemingly unrelated 
events or activities will be more readily correlated with other 
fragments of data to build a composite view of reality based on 
millions of pieces of data collected over time from a variety of 
sources.
    The projected life cycle of each component is different and some 
have not been predicted. The expected Mean Time between Failure (MTBF) 
and expected lifespan of several major components are listed below:



                                                      Predicted Cost-
       Component                   MTBF             Effective  Lifespan

     Power Generator                1,000 hrs                 5 Years
                    LORROS Camera   4,000 hrs                 5 Years
         MSTAR Radar               14,000 hrs                10 Years
  Redeployable Tower                5,000 hrs                20 Years


    P-28 redeployable towers are going to be replaced with long-term, 
fixed towers in the Tucson Sector. The redeployable assets that 
constitute P-28 will be used to increase operational availability of 
other sectors, in the event that fixed assets are inoperable for a 
period of time due to vandalism, etc.

    Question 4.: What are the expected maintenance costs of the 
redeployable sensor towers, and the life cycle requirements?
    Response: The annual sustainment costs (fuel, repair parts, routine 
services, etc.) for the redeployable sensor towers (assuming they 
operate 24/7/365) are expected to be approximately 13 to 18% of the 
total acquisition cost per year. Obviously, as they are replaced with 
fixed surveillance assets, the sustainment costs will decline.
    At the system level, SBInet sustainment costs are expected to 
decline over time as the power efficiency of major components 
increases, when more reliable technology becomes available; and, as 
advancements in surveillance technology reduce the overall quantities 
of equipment necessary to provide continuous coverage of large areas.

    Question 5.: Please describe the process that was used to test the 
long-term viability of the equipment being deployed to the Southwest 
Border under SBInet.
    Response: The primary sensors, LORROS camera and MSTAR radar were 
selected on the basis of their proven field record in demanding 
environments. The LORROS camera system has been widely used in arid 
desert, marine, cold, humid, and tropical environments. The MSTAR 
ground surveillance radar is a proven man-portable design with recent 
applications in Iraq, Afghanistan, Canada and other challenging 
environments. Both items are among the most reliable and certainly most 
capable systems available on the market today.

        a. Can it withstand the desert climate and other inclement 
        weather?
        Response: The sensor hardware selected (cameras and radars) 
        that is located in exposed environments has a demonstrated 
        capability to operate in the desert environment. Support 
        equipment (computers, routers, etc,) that is not capable of 
        surviving in an uncontrolled environment has been placed in 
        environmental enclosures that have redundant cooling. The 
        environmental enclosures also provide protection from sand/dust 
        and rain exposure.

        b. Who will be responsible for checking the performance of each 
        tower?
        Response: The Boeing SBI Test and Evaluation organization is 
        performing a P-28 System Acceptance Test (SAT) prior to the 
        declaration of the Initial Operational Capability (IOC). The 
        SAT test plan requires that all subsystem functionality be 
        fully tested in accordance with the P-28 System Verification 
        Test Procedure (D333-100006-1). The subsystems include nine (9) 
        towers, a Common Operating Picture (COP), a mobile COP, a 
        Forward Operating Base (FOB), and a communications systems.
        The tower functionality that is being tested is as follows:
        <bullet> Tower pedestal control--elevation and azimuth.
        <bullet> LORROS camera modes--black-and-white, color, infrared. 
        Camera range and focus.
        <bullet> Security camera range and focus.
        <bullet> Loud-hailer/annunciator.
        <bullet> Laser range finder range testing.
        <bullet> MSTAR radar detection and range testing.
        <bullet> MSTAR to LORROS camera automated slew-to-click 
        testing. 
        <bullet> All subsystem functionality is demonstrated by using 
        the network communications systems and COP system.

        c. Who will respond if/when a sensor fails? How quickly will 
        this occur?
        Response: Following delivery of this equipment to the 
        government, maintenance, response and equipment restoration/
        repair will be performed by a combination of Boeing and third-
        party vendors. The selection of specific vendors will be based 
        on a variety of factors, including geographic area, small 
        business considerations, warranty status, and other factors. 
        Boeing and CBP have established an Integrated Logistics Support 
        Management Team as a government-industry partnership, which 
        includes a 24/7/365 Call Center. All failures and calls for 
        assistance will be managed through the Call Center. The target 
        response time for all calls for maintenance or repair by the 
        maintenance provider is 30 minutes with an on-site response 
        goal of 2 hours.

    Question 6.: What is the methodology being used to determine which 
technologies and infrastructure will be placed in which locations?
    Response: The locations for sensing technology have been determined 
through detailed analytical assessment of the candidate lines-of sight 
and fields of regard. Promising sites were inspected by field teams for 
physical suitability. The site assessments have been coordinated with 
CBP personnel to confirm the tactical value of the sites chosen 
relative to the expected incursions.

    Question 7.: How much fencing and vehicle barrier are included in 
Project 28?
    Response: None.

    Question 8.: Through previous trips to the border, the Committee 
has learned that technology and geography have limited the Border 
Patrol's ability to encrypt transmissions, which means they generally 
talk on open radio channels, allowing anyone with a scanner, including 
smugglers, to listen in. What is being done as part of SBInet to 
address this serious security and agent safety issue?
    Response: SBInet enhances Border Patrol communications through two 
means.
    The first provides improved situational awareness to Border Patrol 
agents via a Common Operating Picture (COP). The COP, which provides 
operational, situational, intelligence and investigative information 
and alerts agents to illegal entries into the United States, is 
transmitted to laptops in agent vehicles using secure wireless 
networks. Towers within Project 28 are equipped with wireless data 
access points. These provide non-line-of-sight Worldwide 
Interoperability for Microwave Access (WiMax) transmission of COP data. 
SBInet communications employ encryption algorithms that are compliant 
with the Federal Information Processing Standards (FIPS 140-2, FIPS 
197). Additionally, some parts of the SBInet system employ encrypted 
channels and data streams which are, in turn, carried inside of 
encrypted transmissions systems.
    The second communications enhancement for agents within the Project 
28 area is satellite phones. These phones do not require line-of-site 
or cell phone towers to ensure connectivity, and therefore provide more 
consistent coverage of voice communications. Additionally, they do not 
leverage standard Radio Frequencies which can be intercepted by 
scanners.
    Voice-over-satellite communications and encrypted COP 
communications enable information sharing and coordination between 
CBP's three primary operational elements: the Office of Border Patrol, 
the Office of Field Operations and the Office of Air and Marine 
Operations, while mitigating security and agent safety risks.

    Question 9.: In your testimony, you describe the systems 
engineering and design approach that your company has developed over 
time and used successfully on other large, complex projects. Please 
discuss another project that Boeing has managed, and compare it to the 
operational challenges of SBInet, given the complexity of the situation 
on the Southwest Border.
    Response: Ground-Based Midcourse Defense (GMD) is an example of 
Boeing using its systems engineering and design approach to execute a 
very technically complex and demanding program. For GMD, which is a 
large-scale, anti-ballistic missile system for defending the country 
against nuclear ICBM missiles, Boeing first established a robust set of 
requirements for the system, decomposed them to lower-level components, 
and conducted design reviews to assess the correct design response to 
those requirements. As in the SBInet case, those components that were 
``off the shelf'' and could be adapted to the new application were 
integrated into the design. For other components, such as the 
interceptor booster and ``kill vehicle,'' Boeing tasked major suppliers 
to develop and test those components under Boeing's technical 
management oversight and direction. Each element, such as the command 
and control system, interceptor, radars, EO/IR sensors, and 
communications elements, which in many cases are systems in their own 
right, was integrated together into a ``System of Systems'' engineering 
solution. Verification and validation of the system is done through 
live flight tests where the system has demonstrated success by 
``hitting a bullet with a bullet'' many miles out in space. This level 
of success with a system as complex as GMD could only be achieved by 
applying a proven systems engineering process. This same process is 
being used to design, build and field a complex SBInet system. 
Requirements have been established, design solutions are being 
completed, and test plans being formulated.

    Question 10.: In your testimony, you describe the redeployable 
sensor towers and associated equipment as ``highly reliable.'' What 
assurances can you give this committee, and the American people, that 
we will not see another case of poorly operated, poorly maintained 
technology being deployed at the border? How well will this equipment 
perform after 5 years in 110-degree desert climate?
    Response: The P-28 COTS equipment selected was designed to operate 
within the environment where it will be deployed. The CBP/Boeing's 
Integrated Logistics Support Management Team approach defines a process 
that normalizes maintenance, repair, and technology insertion and 
obsolescence management to sustain improved reliability, 
maintainability and availability on all systems. By combining CBP and 
Boeing ILS capabilities, SBInet will have 24/7/365 monitoring of system 
performance along with a maintenance infrastructure to sustain the CBP 
mission

    Question 11.: On November 15, 2006, in your testimony before the 
Subcommittee on Management, Integration, and Oversight in the 109th 
Congress, you assured Members that Boeing had the following items in 
its SBI ``toolkit'': sensors, communications systems, information 
technology, tactical infrastructure, including roads, barriers, and 
fencing, and command and control capabilities. What has changed since 
November 2006? What reason can you offer for removing ``roads, 
barriers, and fencing'' from the toolkit used in Project 28?
    Response: Roads, barriers, and fencing are all components in the 
SBInet design toolkit and are essential elements of the total SBInet 
solution. P-28 is a fixed-price, limited proof-of-concept pilot 
project. We were allotted a maximum of $20M to produce a project 
designed to demonstrate our capabilities. We selected a ``Virtual 
Fence'' approach, coupled with the situational awareness of a Common 
Operational Picture as having the best overall value within the given 
cost parameters. In designing the P-28 solution, we emphasized the use 
of elements with high potential to help ourselves and CBP gain valuable 
insights and information related to our approach. We did not view the 
costs and construction periods associated with roads, fences and 
barriers to be compatible with the objectives of this pilot project in 
even a limited implementation.
    As we move forward, we will employ roads, fences and barriers 
wherever they are needed to ensure either deterrence or successful law 
enforcement resolution of an illegal crossing. Our technical solutions 
will include surveillance of these infrastructure components in order 
to both secure them and to ensure appropriate and timely response to 
attempts to breach them.

    Question 12.: If other equipment is needed to improve the SBI 
mission, Boeing has assured this committee it has other tools in mind 
and can modify the plan. To your knowledge, what other equipment is 
readily available and potentially valuable that is not a component of 
Project 28?
    Response: Products used in securing the border are under constant 
improvement through the vendor's internal research and development 
programs. Among the new developments that will be available this year 
are WiMax 802.16-compatible components for wireless data transfers that 
were not readily available at the time Boeing put together the original 
proposal. We anticipate other technologies will be matured sufficiently 
for use in SBInet, such as non-intrusive lie detection, image 
enhancements for long-range cameras, license plate readers, portable 
biometric readers, false document identification, and precision imaging 
digital signal processing for radars, just to name a few.
    Boeing and CBP are instituting a technology-integrated product team 
that will continue to assess the product developments in industry, in 
our national labs and through the Science and Technology Directorate at 
DHS. Those improvements that dramatically increase performance and 
reliability at reduced cost will become candidates for updates and 
improvements to the SBInet Toolbox.

    Question 13: I understand that the sensor towers in Project 28 are 
using satellite imagery to track movement of illegal aliens. I am also 
aware that for future SBI missions, Boeing plans to use existing ISIS 
towers, which use microwave-transmission technologies instead. Please 
describe the difference between satellite and microwave-transmission, 
and the benefits and risks associated with both technologies on the 
border.
    Response: Satellite imagery is not used to track movement of 
illegal aliens in the P-28 solution. Satellite imagery is used to 
provide the appropriate scenario background for the screens that 
display and track indications of illegal aliens that are detected by a 
variety of sensors, including radar, seismic, acoustic, infrared, and 
others. The P-28 solution employs mobile/relocatable sensor towers that 
can be repositioned to alternative locations on the border as required. 
The mobility aspect of these towers requires an equally mobile 
communications means. Satellite communications is the media of choice 
for this requirement.
    Once the locations are proven to be effective vantage points from 
which to detect illegal activities, the intent is to replace them with 
permanent, fixed towers. These permanent towers, as in the case of ISIS 
towers, will employ microwave communications to carry the sensor, 
video, and other signals back to the Station and Sector Headquarters 
for processing and monitoring. The microwave systems are less costly.

    Question 14.: One aspect of Project 28 is using contractors to 
provide transportation services to move apprehended aliens from the 
field to the detention center. How much do you estimate that this will 
cost?
    Response: The use of contractors to provide transportation services 
is not part of the P-28 Task Order. It will be part of the follow-on 
operational and maintenance contract.
    We did include three Rapid Response Transports (RRTs) to be used on 
a case-by-case basis, where access may be more difficult. However, the 
operators for these vehicles will be government personnel.

                                 <all>

</pre></body></html>
